No.

In the Supreme Court of the United States
STATES OF TEXAS, ALABAMA, ARIZONA, ARKANSAS,
FLORIDA, GEORGIA, INDIANA, KANSAS, LOUISIANA,
MISSISSIPPI, MISSOURI, NEBRASKA, NORTH DAKOTA,
SOUTH CAROLINA, SOUTH DAKOTA, TENNESSEE,
UTAH, AND WEST VIRGINIA; NEILL HURLEY
AND JOHN NANTZ,
Conditional Cross-Petitioners
v.
S TATE OF C ALIFORNIA , ET AL .
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

CONDITIONAL CROSS-PETITION
FOR A WRIT OF CERTIORARI
ROBERT HENNEKE
TEXAS PUBLIC POLICY
FOUNDATION
901 Congress Avenue
Austin, Texas 78701
Telephone: (512) 472-2700
rhenneke@texaspolicy.com
Counsel of Record for
Individual Conditional
Cross-Petitioners

KEN PAXTON
Attorney General of Texas
JEFFREY C. MATEER
First Assistant
Attorney General
KYLE D. HAWKINS
Solicitor General
Counsel of Record
MATTHEW H. FREDERICK
Deputy Solicitor General
LANORA C. PETTIT
Assistant Solicitor General
OFFICE OF THE
ATTORNEY GENERAL
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Kyle.Hawkins@oag.texas.gov
(512) 936-1700

Counsel for State Conditional
Cross-Petitioners

QUESTIONS PRESENTED

Congress passed the Patient Protection and Affordable Care Act (“ACA”), Pub. L. No. 111-148, 124 Stat. 119
(Mar. 23, 2010), with the express goal of achieving nearuniversal health-insurance coverage. To achieve that
goal, Congress found it was “essential” to require
healthy Americans to ensure that they have what Congress considered minimum essential coverage. In 2012,
this Court held that “[t]he Federal Government does not
have the power to order people to buy health insurance.”
Nat’l Fed’n of Indep. Bus. v. Sebelius (“NFIB”), 567 U.S.
519, 575 (2012) (op. of Roberts, C.J.). The Court upheld
the minimum-essential-coverage requirement, however,
because it was “fairly possible” to construe the mandate
as a tax. Id. at 574. In 2017, Congress eliminated that alternative construction by zeroing out any penalty. That
legislative act rendered the individual mandate unconstitutional, as the court below correctly held.
The Court should deny the petitions in Nos. 19-840
and 19-841. But if it grants them, it should grant this conditional cross-petition, as well, which presents the following questions:
1. Whether the unconstitutional individual mandate
to purchase minimum essential coverage is severable
from the remainder of the ACA.
2. Whether the district court properly declared the
ACA invalid in its entirety and unenforceable anywhere.

P A R T I E S T O T H E P R O C E E D IN G

Conditional cross-petitioners the States of Texas, Alabama, Arizona, Arkansas, Florida, Georgia, Indiana,
Kansas, Louisiana, Mississippi, Missouri, Nebraska,
North Dakota, South Carolina, South Dakota, Tennessee, Utah, and West Virginia, as well as Neill Hurley and
John Nantz are plaintiffs in the district court and appellees in the court of appeals.
Cross-respondents the States of California, Connecticut, Delaware, Hawaii, Illinois, Massachusetts, Minnesota (by and through the Department of Commerce),
New Jersey, New York, North Carolina, Oregon, Rhode
Island, Vermont, Virginia, and Washington, Governor
Andy Beshear of Kentucky, and the District of Columbia
intervened as defendants in the district court and were
appellants in the court of appeals. Cross-respondents the
States of Colorado, Iowa, Michigan, and Nevada intervened as defendants-appellants in the court of appeals.
Cross-respondent the United States House of Representatives purported to intervene as defendant-appellant in the court of appeals. The Fifth Circuit, however,
never ruled on the U.S. House’s standing to do so.
Cross-respondents the United States of America, the
United States Department of Health and Human Services, Alex Azar II, Secretary of the United States Department of Health and Human Services, the Internal
Revenue Service, and Charles P. Rettig, the Commissioner of the Internal Revenue Service are defendants in
the district court and filed a notice of appeal. Though
designated as appellants in the court of appeals, they ultimately defended the district court’s judgment and are
(II)

designated as respondents to the petitions for writs of
certiorari filed in Nos. 19-840 and 19-841.
RELATED PROCEEDINGS

The proceedings directly related to this conditional
cross-petition are:
California, et al. v. Texas, et al., No. 19-840, Supreme
Court of the United States. Petition for writ of certiorari
pending.
U.S. House of Representatives v. Texas, et al., No. 19841, Supreme Court of the United States. Petition for
writ of certiorari pending.
Texas, et al. v. United States, et al., No. 19-10011,
United States Court of Appeals for the Fifth Circuit.
Judgment entered December 18, 2019.
Texas, et al. v. United States, et al., No. 4:18-cv-167,
United States District Court for the Northern District of
Texas. Partial final judgment entered December 30,
2018.

(III)

T A B L E O F C O N T E N TS

Page
Questions Presented ............................................................. I
Parties to the Proceeding ................................................... II
Related Proceedings ......................................................... III
Table of Authorities ............................................................. V
Opinions Below ......................................................................3
Jurisdiction .............................................................................3
Constitutional and Statutory Provisions Involved ...........4
Statement ...............................................................................4
Reasons for Granting the Petition ......................................9
I. Review of Either the Petitions or Conditional
Cross-Petition Is Premature .........................................9
II. If the Court Grants Either Petition, It Should
Grant This Cross-Petition, Which Presents
Complementary Questions That Allow the
Court to Uphold the District Court’s
Judgment in Its Entirety .............................................10
A.

The district court correctly held that
the individual mandate is not severable
from the remainder of the ACA ................... 11

B.

The district court properly issued a
declaratory judgment that was not
limited by geography ..................................... 18

Conclusion ............................................................................22

(IV)

TABLE OF AUTHORITIES

Page(s)

Cases

Abbott v. Veasey,
137 S. Ct. 612 (2017) .................................................. 9, 10
Alaska Airlines, Inc. v. Brock,
480 U.S. 678 (1987) ...................................... 11, 12, 13, 16
Califano v. Yamasaki,
442 U.S. 682 (1979) ........................................................ 20
California v. Rooney,
483 U.S. 307 (1987) ........................................................ 10
Champlin Ref. Co. v. Corp. Comm’n of Okla.,
286 U.S. 210 (1932) ........................................................ 11
Combs v. Ryan’s Coal Co.,
785 F.2d 970 (11th Cir. 1986) ....................................... 19
Exec. Benefits Ins. Agency v. Arkinson,
573 U.S. 25 (2014) .......................................................... 13
Florida ex rel. Bondi v.
U.S. Dep’t of Health and Human Servs.,
780 F. Supp. 2d 1307 (N.D. Fla. 2011) ...................18-19
Free Enter. Fund v. Pub. Co. Accounting
Oversight Bd.,
561 U.S. 477 (2010) ........................................................ 11
Genesis Healthcare Corp. v. Symczyk,
569 U.S. 66 (2013) ............................................................ 2
Gill v. Whitford,
138 S. Ct. 1916 (2018) ...................................................... 9
(V)

Page(s)

Cases (continued):

Halbig v. Burwell,
758 F.3d 390 (D.C. Cir. 2014) ......................................... 4
Hamilton-Brown Shoe Co. v. Wolf Bros. & Co.,
240 U.S. 251 (1916) .......................................................... 9
Hill v. Wallace,
259 U.S. 44 (1922) .......................................................... 13
Kontrick v. Ryan,
540 U.S. 443 (2004) ........................................................ 19
Madsen v. Women’s Health Ctr., Inc.,
512 U.S. 753 (1994) ........................................................ 20
Microsoft v. Baker,
137 S. Ct. 1702 (2017) ................................................... 19
Minnesota v.
Mille Lacs Band of Chippewa Indians,
526 U.S. 172 (1999) .................................................. 13, 15
Murphy v. NCAA,
138 S. Ct. 1461 (2018) .................................................... 11
Nat’l Fed’n of Indep. Bus. v. Sebelius,
567 U.S. 519 (2012) ............................................... passim
New York v. United States,
505 U.S. 144 (1992) ........................................................ 16
Pub. Serv. Comm’n of Utah v. Wycoff Co.,
344 U.S. 237 (1952) ....................................................... 18
Reno v. ACLU,
521 U.S. 844 (1997) ........................................................ 11
(VI)

Page(s)

Cases (continued):

Texas v. Hopwood,
518 U.S. 1033 (1996) ...................................................... 10
United Parcel Serv., Inc. v. Flores-Galarza,
318 F.3d 323 (1st Cir. 2003) .......................................... 19
Va. House of Delegates v. Bethune-Hill,
139 S. Ct. 1945 (2019) ...................................................... 4
Va. Military Inst. v. United States,
508 U.S. 946 (1993) .......................................................... 9
Veasey v. Abbott,
888 F.3d 792 (5th Cir. 2018) ......................................... 10
Whole Women’s Health v. Hellerstedt,
136 S Ct. 2292 (2016) ............................................... 11, 12
Williams v. Standard Oil Co. of La.,
278 U.S. 235 (1929) ........................................................ 17
Zobel v. Williams,
457 U.S. 55 (1982) .......................................................... 14
Statutes and Rules
26 U.S.C.
§ 36B .................................................................................. 5
§ 4980H ............................................................................. 5
§ 5000A(a) ......................................................................... 5
§ 5000A(c) ......................................................................... 5
§ 5000B ............................................................................ 16
§ 6056 ................................................................................. 5

(VII)

Statutes and Rules (continued):

Page(s)

28 U.S.C.
§ 1254 ................................................................................. 3
§ 1291 ................................................................................. 3
42 U.S.C.
§ 254b-2 ........................................................................... 20
§ 300gg .............................................................................. 6
§§ 300gg to gg-4 .............................................................. 6
§ 300gg-1 ........................................................................... 6
§ 300gg-4(a) ...................................................................... 6
§ 300gg-15 ......................................................................... 5
§ 300u-11 ......................................................................... 20
§ 1396a(k)(1) ..................................................................... 5
§ 1396u-7(b)(1) ................................................................. 5
§ 1396u-7(b)(5) ................................................................. 5
§ 18081 ............................................................................... 5
§ 18091(2)(F)..................................................................... 5
§ 18091(2)(H) .................................................................... 8
§ 18091(2)(I) .......................................................... 6, 12, 14
§ 18091(2)(J) ..................................................................... 7
Patient Protection and Affordable Care Act, Pub.
L. No. 111-148, 124 Stat. 119 (Mar. 23, 2010) .............. I
§ 9010(b) .......................................................................... 16
§ 9010 ............................................................................... 15
Tax Cuts and Jobs Act of 2017, Pub. L. 115-97,
§ 11081, 131 Stat. 2054, 2092 (2017) .............................. 7
(VIII)

Statutes and Rules (continued):

Page(s)

Sup. Ct. R. 12.5 ...................................................................... 3
Sup. Ct. R. 13.1 ...................................................................... 3
Other Authorities
Alan C. Monheit et al., Community Rating and
Sustainable Individual Health Insurance
Markets in New Jersey, 23 HEALTH
AFFAIRS No. 4 (July/Aug. 2004),
https://www.healthaffairs.org/doi/pdf/
10.1377/hlthaff.23.4.167 ................................................. 7
ANTONIN SCALIA & BRYAN A. GARNER,
READING LAW: THE INTERPRETATION OF
LEGAL TEXTS (2012) .................................................... 14
Br. for Defendants-Appellants United
States et al., Texas v. United States,
945 F.3d 355 (5th Cir. 2019) ......................................... 19
Brief for Respondents (Severability),
Nat’l Fed’n of Indep. Bus. v. Sebelius,
567 U.S. 519 (2012) .......................................... 6, 7, 13, 14
CONGRESSIONAL BUDGET OFFICE,
KEY ISSUES IN ANALYZING MAJOR HEALTH
INSURANCE PROPOSALS (Dec. 2008),
https://www.cbo.gov/sites/default/files/110thcongress-2007-2008/reports/12-18keyissues.pdf 2008 ......................................................... 14

(IX)

Other Authorities (continued):

Page(s)

DOUGLAS LAYCOCK ET AL.,
MODERN AMERICAN REMEDIES: CASES AND
MATERIALS (4th ed. 2010) ............................................ 19
Oral Argument, Texas v. United States,
945 F.3d 355 (5th Cir. 2019),
www.ca5.uscourts.gov/OralArgRecordi
ngs/19/19-10011_7-9-2019.mp3 ................................ 8, 18
PETER H. SCHUCK, SUING GOVERNMENT:
CITIZEN REMEDIES FOR OFFICIAL
WRONGS (1983) .............................................................. 19
Robert Book, The Strange Effects of The Health
Insurance ‘Annual Fee’ Tax, Forbes.com,
Feb. 20, 2014, https://www.forbes.com/sites/
theapothecary/2014/02/20/the-strangeeffects-of-the-health-insurance-annual-feetax/#70027bf45cdf ......................................................... 15
Robert L. Sterne, When to Cross-Appeal or
Cross-Petition—Certainty or Confusion?,
87 HARV. L. REV. 763 (1974) .......................................... 2
Samuel L. Bray, The Myth of the Mild
Declaratory Judgment,
63 DUKE L.J. 1091 (2014) ............................................. 19
STEPHEN M. SHAPIRO, ET AL., SUPREME
COURT PRACTICE (10th ed. 2013) .................................. 2

(X)

Other Authorities (continued):

Page(s)

William J. Brennan, Jr., Some Thoughts on
the Supreme Court’s Workload,
66 JUDICATURE 230 (1983) ........................................... 10

(XI)

In the Supreme Court of the United States
No.
S TATES OF T EXAS , A LABAMA , A RIZONA , A RKANSAS ,
F LORIDA , G EORGIA , I NDIANA , K ANSAS , L OUISIANA ,
M ISSISSIPPI , M ISSOURI , N EBRASKA , N ORTH D AKOTA ,
S OUTH C AROLINA , S OUTH D AKOTA , T ENNESSEE , U TAH ,
W EST V IRGINIA ; N EILL H URLEY AND J OHN N ANTZ ,
Conditional Cross-Petitioners,
v.
S TATE OF C ALIFORNIA , ET AL .
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

CONDITIONAL CROSS-PETITION
FOR A WRIT OF CERTIORARI

The petitions filed by the States (in No. 19-840) and
the U.S. House of Representatives (in No. 19-841) should
be denied. Those petitions seek review of the Fifth Circuit’s decision that (1) conditional cross-petitioners have
shown sufficient proof of standing to be entitled to partial summary judgment, (2) the ACA’s minimum-essential-coverage requirement, also known as the “individual
mandate,” is unconstitutional, and (3) remand was appropriate for the district court to address questions of
severability and remedy. The Fifth Circuit’s decision is
(1)

2
not worthy for this Court’s consideration at this time.
The case is in an interlocutory posture, and none of the
questions presented justify deviation from this Court’s
ordinary practice to grant review only after final judgment.
But if this Court were to grant either (or both) of the
petitions, it should ensure that any writ of certiorari to
the United States Court of Appeals for the Fifth Circuit
encompasses whether the circuit court should have affirmed the district court’s judgment in its entirety, including the district court’s severability and remedial rulings.
This Court’s rules are unclear on whether it is necessary for plaintiffs to separately cross-petition under
these circumstances.1 Indeed, the U.S. House has all but
argued that this conditional cross-petition is unnecessary for the plaintiffs to preserve their right to argue for
full affirmance of the district court. See House Mot. for
Expedition Reply 10 (questioning whether this cross-petition is required and describing it as “at best a technical
formality”). Nevertheless, out of an abundance of caution, and to avoid any accusation of waiver or forfeiture,
cross-petitioners request that any Court order granting
review permit them to argue that the district court’s
S TEPHEN M. S HAPIRO , ET AL ., S UPREME C OURT P RACTICE
491 n. 131 (10th ed. 2013) (“If the first petition asserts that a
judgment for damages is too high, a cross-petition must be
filed by a party who wishes to argue that the same amount is
too low.”) (citing Robert L. Sterne, When to Cross-Appeal or
Cross-Petition—Certainty or Confusion?, 87 H ARV . L. R EV .
763, 767 (1974)); cf. Genesis Healthcare Corp. v. Symczyk, 569
U.S. 66, 82 n.1 (2013) (Kagan, J., dissenting).

1

3
ruling, including its holdings on severability and remedy,
should have been affirmed in its entirety.
OPINIONS BELOW

The court of appeals has revised its opinion twice to
correct technical errors. The operative version is published at 945 F.3d 355. As they do in their briefs in opposition, conditional cross-petitioners refer to the petitioners’ appendix filed in California v. Texas, No. 19-840, to
avoid confusion. The relevant orders of the district court
are reported at 340 F. Supp. 3d 579 (App. 163a-231a) and
352 F. Supp. 3d 665 (App. 117a-162a).
JURISDICTION

The district court entered a partial final judgment on
December 30, 2018. App.116a; id. 117a-162a.2 The court
of appeals had jurisdiction under 28 U.S.C. § 1291. The
judgment of the court of appeals was entered on December 18, 2019. App. 1a.
This Court has certiorari jurisdiction under 28 U.S.C.
§ 1254 over (1) the petition filed by the States who intervened in the courts below, and (2) this conditional crosspetition, which was filed within 90 days of the circuit
court’s judgment. Sup. Ct. R. 13.1; accord Sup. Ct. R.
12.5 (allowing an additional 30 days for a conditional
cross-petition).
The Court lacks jurisdiction over the petition filed by
the U.S. House in No. 19-841. Though timely, as one
chamber of a bicameral legislature, the U.S. House of
Representatives lacks standing to separately petition in
ROA refers to the record on appeal in Texas v. United States,
19-10011 (5th Cir.).

2

4
this Court on its own behalf to defend a legislative enactment. Va. House of Delegates v. Bethune-Hill, 139 S. Ct.
1945, 1953 (2019). And the U.S. House has no distinct injury of its own sufficient to support standing. See id.
C O N S T I T U T I O N A L AN D S T A T U T O R Y
P R O V I S I O N S IN V O L V E D

Certain pertinent constitutional and statutory provisions are reproduced at App. 232a-44a. Additional pertinent statutory provisions are reproduced at Cross-Pet.
App. 1a-92a.
STATEMENT

Conditional cross-petitioners have already provided
a complete statement in their briefs in opposition in Nos.
19-840 and 19-841, filed February 3, 2020. Cross-petitioners incorporate that statement by reference and add
the following information relevant to consideration of the
questions presented in this conditional cross-petition.
1. In 2010, Congress sought to achieve near-universal
health-insurance coverage by creating a complex latticework of “closely interrelated” provisions resting on three
key features. NFIB, 567 U.S. at 691 (dissenting op.).
Those features, which the D.C. Circuit referred to as a
“three-legged stool,” Halbig v. Burwell, 758 F.3d 390,
409 (D.C. Cir. 2014), vacated on other grounds, No. 145018, 2014 WL 4627181 (D.C. Cir. Sept. 4, 2014), were:
(1) a requirement that Americans buy minimum essential health insurance, known as the “individual mandate”;
(2) a guaranteed-issue provision; and (3) a communityrating provision. Id.
2. At the heart of the ACA is what is referred to as
the individual mandate and its tax penalty enforceable

5
against those who do not comply. The text of the mandate
provides: “An applicable individual shall . . . ensure that
the individual . . . is covered under minimum essential
coverage.” 26 U.S.C. § 5000A(a). The statutory title of
this subsection reiterates that it imposes a “requirement” on applicable individuals “to maintain minimum
essential coverage.” Id. (capitalization altered).
As discussed in greater detail in conditional cross-petitioners’ briefs in opposition, Congress used several
mechanisms to give the mandate teeth. Br. Opp. 4-5. As
relevant here, Congress built numerous provisions of the
ACA to effectuate the minimum-essential-coverage requirement. For example, Congress obligated States to
provide what it defined as minimum essential care in
their Medicaid programs, 42 U.S.C. § 1396a(k)(1) (incorporating standard through id. §§ 1396u-7(b)(1), (5)), and
obligated employers to provide insurance to employees,
26 U.S.C. § 4980H. Congress used the minimum-essential-coverage requirement to define insurance companies’ disclosure obligations to their customers, 42 U.S.C.
§ 300gg-15, and employers’ disclosure obligations to the
IRS, 26 U.S.C. § 6056. And it used the same requirement
to trigger individuals’ ability to access public insurance
exchanges, 42 U.S.C. § 18081; their right to receive public subsidies to buy insurance, 26 U.S.C. § 36B; and their
obligation to pay a tax penalty if they did not do so, id.
§ 5000A(c). In 2010, Congress found that the insurance
“requirement, together with the[se] other provisions of
the Act” would lead to universal healthcare coverage and
lower
health-insurance
premiums.
42
U.S.C.
§ 18091(2)(F).

6
3. Statutory text insists that the mandate and its effectuating provisions are vital to the proper function of
the ACA, which imposes voluminous regulations on
health-insurance companies, with the most prominent
being “guaranteed issue” and “community rating” requirements. See id. §§ 300gg to gg-4. The guaranteed-issue provision mandates that health-insurance companies
“accept every employer and individual in the State that
applies for . . . coverage,” regardless of preexisting conditions. Id. § 300gg-1. The community-rating provision
prohibits health insurers from charging higher rates to
individuals within a given geographic area on the basis of
their age, sex, health status, or other factors. See id.
§§ 300gg, 300gg-4(a).
As the United States conceded in NFIB and again in
this litigation, “the minimum[-]coverage provision is necessary to make effective the Act’s guaranteed-issue and
community-rating insurance market reforms.” Brief for
Respondents (Severability) 26, NFIB, 567 U.S. 519
(“NFIB Br.”); ROA.1570. The government explained
that “Congress’s findings expressly state that enforcement of [community and guaranteed issue] without a
minimum[-]coverage provision would restrict the availability of health insurance and make it less affordable—
the opposite of Congress’s goals in enacting the Affordable Care Act.” NFIB Br. 44-45. This problem would result because, “in a market with guaranteed issue and
community rating, but without a minimum[-]coverage
provision, ‘many individuals would wait to purchase
health insurance until they needed care.’” Id. at 45 (quoting 42 U.S.C. § 18091(2)(I)).

7
This “adverse selection” problem would cause premiums to “go up, further impeding entry into the market
by those currently without acute medical needs, risking
a ‘marketwide adverse-selection death spiral.’” Id. at 46
(quoting Alan C. Monheit, et al., Community Rating and
Sustainable Individual Health Insurance Markets in
New Jersey, 23 HEALTH AFFAIRS No. 4 at 167, 169
(July/Aug. 2004), https://www.healthaffairs.org/doi/pdf/
10.1377/hlthaff.23.4.167); see 42 U.S.C. § 18091(2)(J).
This hazard is why Congress “twice described” minimum
coverage “as ‘essential’” to “the guaranteed-issue and
community-rating reforms” in the ACA’s text. NFIB Br.
46-47. In sum, “without a minimum[-]coverage provision,
the guaranteed-issue and community-rating provisions
would drive up costs and reduce coverage, the opposite
of Congress’s goals.” Id. at 26.
4. Neither this economic reality nor Congress’s findings about the function of its own statute have changed
since 2010. In 2017, Congress “eliminat[ed],”3 this
Court’s statutory “basis to adopt such a saving construction,” NFIB, 567 U.S. at 575 (Roberts, C.J.). Section
11081 of the Tax Cuts and Jobs Act (“TCJA”) reduced
the operative parts of section 5000A(c)’s tax penalty to
“[z]ero percent” and “$0.”
As petitioners acknowledge, the TCJA left “every
other provision of the ACA in place,” including the mandate and the inseverability clause that labels that mandate “essential.” States Pet. 2; see House Pet. 31. Specifically, Congress preserved all of its earlier findings that
Tax Cuts and Jobs Act of 2017, Pub. L. 115-97, § 11081, 131
Stat. 2054, 2092 (2017) (capitalization altered).

3

8
the individual mandate “is an essential part of [the government’s] regulation of economic activity.” 42 U.S.C.
§ 18091(2)(H).
5. Two individuals and eighteen States brought suit
because the ACA, as amended, “forces an unconstitutional and irrational regime on the States and their citizens.” ROA.504, 530-35. As the United States agrees that
the minimum-essential-coverage requirement is unconstitutional, state petitioners intervened to defend the
law. ROA.220-56, 946-52.
In December 2018, the district court granted a declaratory judgment on the first of cross-petitioners’ five
claims: that the individual mandate is unconstitutional.
App. 163a-231a. As to remedy, the court noted that respondents (individual, state, and federal) “agree[d] . . .
that the guaranteed-issue and community-rating provisions . . . are inseverable” from the individual mandate.
Id. 204a. Indeed, federal respondents requested that the
district court “enter[] a declaratory judgment” to that effect. ROA.1581. The district court declared that the remainder of the ACA was inseverable from the requirement as well. Id. 204a-05a. It was the understanding of
all parties that the declaration would apply nationwide.
See Oral Argument at 7:31-8:35, Texas v. United States,
945 F.3d 355 (5th Cir. 2019) (No.19-10011),
www.ca5.uscourts.gov/OralArgRecordings/19/1910011_7-9-2019.mp3 (premising state conditional crossrespondents’ appellate standing on nationwide impact of
declaration); id. at 49:25-50:19. At the request of state
petitioners (ROA.2674-706), the district court entered a
partial final judgment to allow immediate appeal. App.
117a-62a.

9
The Fifth Circuit affirmed on almost everything except remedy. On the issues of severability and remedy,
the court noted that the United States “ha[d] shifted [its]
position on appeal more than once.” Id. 13a. At oral argument before the Fifth Circuit, the United States argued that under Gill v. Whitford, 138 S. Ct. 1916 (2018),
remand was necessary because the remedy “should only
reach ACA provisions that injure the plaintiffs.” App.
71a. Because this remedial argument “came as a surprise” to conditional cross-petitioners, the Fifth Circuit
ordered the district court to consider this new argument—including whether it was “timely raised”—in the
first instance. Id.
REASONS FOR GRANTING THE PETITION

I.

Review of Either the Petitions or Conditional
Cross-Petition Is Premature.

For the reasons conditional cross-petitioners explain
in their briefs in opposition, the petitions should be denied. This case comes to this Court in an interlocutory
posture in which the lower courts have not yet determined the scope of the relief to which conditional crosspetitioners are entitled. The proper procedure in those
circumstances is to deny review. E.g., Abbott v. Veasey,
137 S. Ct. 612, 613 (2017) (Roberts, C.J., respecting the
denial of certiorari); Va. Military Inst. v. United States,
508 U.S. 946, 946 (1993) (Scalia, J., respecting the denial
of certiorari); accord Hamilton-Brown Shoe Co. v. Wolf
Bros. & Co., 240 U.S. 251, 258 (1916).
This practice preserves this Court’s resources and
prevents it from becoming prematurely involved in disputes that may fundamentally change over the course of

10
subsequent litigation. William J. Brennan, Jr., Some
Thoughts on the Supreme Court’s Workload, 66 JUDICATURE 230, 231-32 (1983); compare Abbott, 137 S. Ct. at
613 (Roberts, C.J.) (declining certiorari because no remedy had been awarded), with Veasey v. Abbott, 888 F.3d
792, 795 (5th Cir. 2018) (holding that no remedy was necessary in light of legislative action taken during remand).
The petitioners’ asserted and unspecified desire for “certainty” in the health-insurance market does not overcome this rule. See Br. Opp. 16-35.
In short, this Court “reviews judgments, not opinions,” even when those opinions address “an issue of
great national importance.” Texas v. Hopwood, 518 U.S.
1033, 1033 (1996) (Ginsburg, J., respecting the denial of
certiorari). This Court has said many times before that
parties may not appeal to press disagreements with a
lower court’s abstract legal conclusions, divorced from
any remedial consequences. See, e.g., California v.
Rooney, 483 U.S. 307, 311 (1987) (per curiam). As conditional cross-petitioners have explained in their briefs in
opposition, that is effectively all the petitioners seek to
do here.
II. If the Court Grants Either Petition, It Should
Grant This Cross-Petition, Which Presents Complementary Questions That Allow the Court to
Uphold the District Court’s Judgment in Its Entirety.
If this Court nonetheless decides to grant review as
to either petition, it should also grant this conditional
cross-petition and conclude that the district court’s severability and remedy rulings were correct. The questions

11
are complementary to the third question presented in
Nos. 19-840 and 19-841. See House Mot. for Expedition
Reply 10 (questioning whether this conditional cross-petition is necessary and labeling it “at best, a technical formality”). Granting this conditional cross-petition would
thus allow the Court to fully analyze those questions and
to hold that the district court’s partial final judgment
should have been affirmed in its entirety.
A. The district court correctly held that the individual mandate is not severable from the remainder
of the ACA.
As petitioners explain, severability is a question of
statutory interpretation. Though courts will avoid invalidating more of an act than necessary to remedy a constitutional defect, this principle does not allow the Court
to “substitute the judicial for the legislative department
of the government.” Whole Women’s Health v. Hellerstedt, 136 S. Ct. 2292, 2319 (2016) (quoting Reno v.
ACLU, 521 U.S. 844, 884-85 n.49 (1997)). Because severance is ultimately a question of legislative intent, Free
Enter. Fund v. Pub. Co. Accounting Oversight Bd., 561
U.S. 477, 508 (2010), courts will not attempt to salvage
pieces of a legislative scheme where it is “evident that
[Congress] would not have enacted those provisions
which are within its power, independently of [that] which
[is] not,” Murphy v. NCAA, 138 S. Ct. 1461, 1482 (2018)
(quoting Alaska Airlines, Inc. v. Brock, 480 U.S. 678, 684
(1987)). See also Champlin Ref. Co. v. Corp. Comm’n of
Okla., 286 U.S. 210, 234-35 (1932). The district court correctly relied on the operative statutory text to hold that

12
the ACA’s remaining provisions are inseverable from the
unconstitutional mandate.
1. As in all issues of statutory interpretation, the first
question is whether Congress expressly addressed severability in the statutory text. While not an “inexorable
command,” the presence of a severability—or inseverability—clause is evidence of the legislature’s preferred
remedy in the event that a portion of the statute is determined to be unconstitutional. Hellerstedt, 136 S. Ct. at
2319.
In this instance, Congress included an inseverability
clause when it passed the ACA in 2010. It states that
“[t]he requirement [to buy health insurance] is essential
to creating effective health[-]insurance markets in which
improved health[-]insurance products that are guaranteed issue and do not exclude coverage of pre-existing
conditions can be sold.” 42 U.S.C. § 18091(2)(I). The 2017
Congress evidently agreed, as it left in place both the
mandate and the inseverability clause.
There can be no clearer statement of Congress’s view
that the mandate is not severable from the rest of the
ACA. That is what the district court concluded. So, too,
should this Court.
2. This conclusion is confirmed by looking to the
broader statutory language. The Court looks to two inquiries to determine if an unconstitutional provision is
inseverable. First, provisions are inseverable if they
would not “function in a manner consistent with the intent of Congress” absent the unconstitutional provision.
Alaska Airlines, 480 U.S. at 684. If the operation of the
unconstitutional provision is “so interwoven with” the intended operation of other provisions “that they cannot be

13
separated,” none will stand. Hill v. Wallace, 259 U.S. 44,
70 (1922).
Second, provisions are inseverable if “the Legislature
would not have enacted [them] . . . independently of” the
provisions found unconstitutional, even if those provisions operated in some otherwise meaningful way.
Alaska Airlines, 480 U.S. at 684. In examining this question, the Court looks not (as petitioners would ask) to isolated floor statements by individual members of Congress. Instead, it looks to whether the statute at issue
“embodie[s] a single, coherent policy” or a “predominant
purpose,” and whether the unconstitutional provisions
are necessary to that purpose. Minnesota v. Mille Lacs
Band of Chippewa Indians, 526 U.S. 172, 191 (1999).
To sever the “essential” individual mandate from the
rest of the ACA, both tests must be satisfied. NFIB, 567
U.S. at 692-94 (dissenting op.). The ACA satisfies neither. To see why the individual mandate is inextricably
intertwined with the remainder of the ACA, it is easiest
to divide the 900-page statute into three tranches: (1) the
community-rating and guaranteed-issue provisions,
(2) remaining major provisions, and (3) minor or ancillary provisions. See generally id. at 697-706.
a. The United States has conceded for nearly a decade—across two different presidential administrations—that the community-rating and guaranteed-issue
provisions are “so interwoven” with the mandate “that
they cannot be separated.” Hill, 259 U.S. at 70. As a result, “[n]one of them can stand.” Id.; see NFIB Br. 26;
ROA.1570. This concession alone provides reason to declare those provisions inseverable. Exec. Benefits Ins.
Agency v. Arkinson, 573 U.S. 25, 36-37 (2014); accord

14
Zobel v. Williams, 457 U.S. 55, 65 (1982) (remanding severability of state statute). Congress had firm empirical
evidence that “in a market with guaranteed issue and
community rating, but without a minimum[-]coverage
provision, ‘many individuals would wait to purchase
health insurance until they needed care.’” NFIB Br. 45
(quoting 42 U.S.C. § 18091(2)(I)); id. at 47; cf. NFIB, 567
U.S. at 694-96 (dissenting op.).
Amici assert that, notwithstanding Congress’s decision to retain these express findings, the findings simply
were no longer true by 2017. In particular, amici point to
economic studies suggesting that subsidies have been
the real driving factor for the increase in the rates of insured persons seen since 2010. E.g., Nat’l Hosp. Ass’n
Br. 8-10. This argument is circular. Subsidies are one of
several mechanisms that Congress used to effectuate the
mandate that Americans buy minimum essential coverage. CONGRESSIONAL BUDGET OFFICE, KEY ISSUES IN
ANALYZING MAJOR HEALTH INSURANCE PROPOSALS 5053
(Dec.
2008),
https://www.cbo.gov/sites/default/files/110th-congress-2007-2008/reports/12-18-keyissues.pdf. Moreover, neither petitioners nor amici cite
evidence that Congress adopted this view beyond isolated floor statements by particular members of Congress. Such statements of individual legislators cannot
change the meaning of the text adopted by both chambers of Congress and signed by the President. ANTONIN
SCALIA & BRYAN A. GARNER, READING LAW: THE INTERPRETATION OF LEGAL TEXTS 369-90 (2012) (discussing “[t]he false notion” that “floor speeches are worthwhile aids in statutory construction”).

15
b. The remaining major provisions are similarly inseverable because they effectuate the near-universal
healthcare coverage that the mandate requires. These
provisions are predominantly located in Title I of the
ACA and are identified in detail in the NFIB dissent. 567
U.S. at 691-703. They include insurance regulations and
taxes; changes to the Medicaid program (e.g., reducing
hospital reimbursements); health-insurance exchanges
and their federal subsidies; employer responsibility payments; and tax benefits to individuals. Id. Though highly
varied, each of these provisions works to meet the “single, coherent policy” that all Americans have minimumessential-healthcare coverage. Mille Lacs Band, 526
U.S. at 191.
To take an example of why they are inseverable from
the individual mandate, consider the health-insurance
provider fee contained in section 9010 of the ACA. This
fee is an assessment imposed upon health-insurance providers on the theory that they will receive a windfall of
new subscribers as a result of the mandate. Robert Book,
The Strange Effects of The Health Insurance ‘Annual
Fee’
Tax,
Forbes.com,
Feb.
20,
2014,
https://www.forbes.com/sites/theapothecary/2014/02/20/
the-strange-effects-of-the-health-insurance-annual-feetax/#70027bf45cdf. If the mandate is declared unconstitutional, any chance of such a windfall would evaporate.
The tax would, however, remain unchanged due to the
way the tax is calculated. Generally speaking, corporate
income tax is assessed by multiplying a tax rate by the
company’s earnings. The ACA’s health-insurance-provider fee, by contrast, is assessed by multiplying the insurer’s market share by a total amount levied against the

16
industry. ACA § 9010(b). Without the increase in customers caused by the mandate, insurers would have to increase their premiums on existing customers to meet the
fee—which was the exact opposite of Congress’s intent.
Cf. NFIB, 567 U.S. at 699 (dissenting op.).
Because this provision would not “function in a manner consistent with the intent of Congress” without the
mandate, it is inseverable from that mandate. Alaska
Airlines, 480 U.S. at 685; see also NFIB, 567 U.S. at 69293 (dissenting op.).
The same is true of all of the major provisions of the
ACA. These provisions include “mandates and other requirements; comprehensive regulation and penalties;
some undoubted taxes; and increases in some governmental expenditures, decreases in others.” NFIB, 567
U.S. at 694 (dissenting op.). As the NFIB dissent noted,
these provisions work “to balance the costs and benefits
affecting each set of regulated parties.” Id. Because that
balance would be fundamentally altered by removing the
individual mandate, the ACA’s remaining major provisions are inseverable from that individual mandate. Cf.
Alaska Airlines, 480 U.S. at 685; New York v. United
States, 505 U.S. 144, 187 (1992).
c. Finally, the ACA’s minor provisions are inseverable for similar reasons. These provisions included,
among other things, a number of minor taxes, e.g., 26
U.S.C. §5000B, and “a number of provisions that provided benefits to the State of a particular legislator.”
NFIB, 567 U.S. at 704 (dissenting op.). Without the main
provisions, these minor provisions make little sense. For
example, the “tax increases no longer operate to offset
costs” as part of “the Act’s scheme of ‘shared

17
responsibility.’” Id. at 705. Moreover, as a whole, “[t]here
is no reason to believe that Congress would have enacted
them independently” of the mandate, community-rating
provision, and guaranteed-issue requirement. Id.; see
also Williams v. Standard Oil Co. of La., 278 U.S. 235,
243 (1929).
Petitioners and their amici counter by pointing to ancillary provisions that, in their view, Congress included
in the ACA for convenience. For example, the ACA reauthorized the Indian Health Service, which has existed
since long before the ACA. Economic Scholars Am. Br.
22. If anything, however, highlighting these examples
demonstrates why this case is not yet ripe for review.
This entire appeal originated from the federal government’s request that the district court treat a request for
a preliminary injunction as a motion for summary judgment. ROA.1563. Like most requests for preliminary relief, the original motion was drafted and briefed in broad
strokes. ROA.572-633. The Fifth Circuit “direct[ed] the
district court to employ a finer-toothed comb on remand”
before entering final judgment. App. 68a. The Court
should allow the lower courts to conduct that analysis in
the first instance. But if it chooses to hear the case now,
it should allow conditional cross-petitioners to argue that
the district court was correct that Congress would not
have passed the ACA absent the mandate.
3. The district court faithfully applied the above principles—including the statutory inseverability clause—to
reach the correct conclusion: No portion of the ACA is
severable from the mandate. The Fifth Circuit should
have affirmed that judgment. Instead, it vacated the district court’s judgment and instructed that court to redo

18
its analysis in light of authorities and arguments the federal government raised for the first time on appeal.
B. The district court properly issued a declaratory
judgment that was not limited by geography.
If the Court grants review, it should also hold that the
district court’s remedy was correct. The district court
declared the individual mandate unconstitutional and inseverable from the remainder of the ACA. App. 231a.
Consistent with the conditional cross-petitioners’ request for relief, that declaratory judgment carried nationwide effect. The Fifth Circuit should have affirmed
that judgment in its entirety.
Instead, the Fifth Circuit vacated the district court’s
remedial determination based in part on a new argument
that the federal government raised for the first time on
appeal. In its district court papers, the federal government expressly argued that the injunctive relief that conditional cross-petitioners had requested was not warranted because such a declaration “would be adequate
relief against the government,” ROA.1581, and that “a
declaratory judgment is the functional equivalent of an
injunction against the federal government,” ROA.2722.
At oral argument before the district court, the federal
government again insisted that it would treat its declaration like the nationwide injunction that conditional
cross-petitioners had requested. Cf. Oral Argument
50:25-38 (describing oral concession to the district court).
That concession is consistent with how courts and commentators have viewed declarations when government
actors are involved. Cf. Pub. Serv. Comm’n of Utah v.
Wycoff Co., 344 U.S. 237, 247 (1952); Florida ex rel.

19
Bondi v. U.S. Dep’t of Health and Human Servs., 780 F.
Supp. 2d 1307, 1315-16 (N.D. Fla. 2011); Samuel L. Bray,
The Myth of the Mild Declaratory Judgment, 63 DUKE
L.J. 1091, 1093 & n.9 (2014) (citing inter alia PETER H.
SCHUCK, SUING GOVERNMENT: CITIZEN REMEDIES FOR
OFFICIAL WRONGS 14-15 (1983)).
But on appeal, the federal government changed its
position and argued for a narrower remedy. See Br. for
Defendants-Appellants United States et al. 26-29 Texas
v. United States, 945 F.3d 355 (5th Cir. 2019). The Fifth
Circuit remanded in part to allow the district court to address this new argument in the first instance. App. 70a72a. But there was no need to do so. Arguments raised
for the first time on appeal are not properly before the
appellate court. See DOUGLAS LAYCOCK, ET AL., MODERN
AMERICAN REMEDIES: CASES AND MATERIALS 955 (4th
ed. 2010) (“[T]he court and the other litigants relied by
continuing to litigate; courts will not retry a case to correct an error that could have been corrected when it was
made.”) (citing Kontrick v. Ryan, 540 U.S. 443, 458 n.13
(2004)); accord United Parcel Serv., Inc. v. FloresGalarza, 318 F.3d 323, 338 (1st Cir. 2003); Combs v.
Ryan’s Coal Co., 785 F.2d 970, 979 (11th Cir. 1986).
Moreover, as Justice Thomas recently recognized in a
different context, “it has long been the rule that a party
may not appeal” from the conclusion of a district court if
“the party consented to the judgment against it.” Microsoft v. Baker, 137 S. Ct. 1702, 1717 (2017) (Thomas, J.,
concurring) (collecting cases). The Fifth Circuit should
have affirmed the district court’s remedial order, rather
than remanding to allow the United States to raise

20
arguments that it could have raised—but did not raise—
in district court.
Furthermore, the district court was correct to declare the entire ACA unconstitutional and unenforceable
nationwide: Such a declaration is both equitable and necessary to “provide complete relief to the plaintiffs.” Califano v. Yamasaki, 442 U.S. 682, 702 (1979); see also Madsen v. Women’s Health Ctr., Inc., 512 U.S. 753, 765
(1994). Invalidating the ACA in a more limited geographic area would force citizens of the cross-petitioning
States to heavily subsidize other States with their general tax dollars. For example, citizens of and entities located in the cross-petitioning States would have their tax
dollars collected and spent in accordance with ACA programs such as the Prevention and Public Health Fund,
see 42 U.S.C. § 300u-11, and the Community Health Center Fund, see id. § 254b-2. Yet none of those funds would
be spent in the cross-petitioning States. A less-than-nationwide injunction would effectively allow a transfer of
hundreds of millions of dollars from the prevailing States
to either conditional-cross-respondent or non-party
States. Far from redressing conditional cross-petitioners’ injuries, such an injunction would exacerbate their
injuries by forcing them to pay for programs and services they no longer receive because they prevailed in
showing those programs and services to be inseverable
from the unconstitutional individual mandate. Such a result is plainly inequitable.
The district court therefore properly invalidated the
ACA nationwide. In the event it grants either or both petitions, the Court should affirm the district court’s

21
remedial order in its entirety consistent with the federal
government’s representations in district court.
[Remainder of page intentionally left blank.]

22
C O N C L U S IO N

The petitions for writs of certiorari filed in Nos. 19840 and 19-841 should be denied. But if the Court decides
to grant either, it should grant this conditional cross-petition as well, which presents complementary questions
of whether the Fifth Circuit should have affirmed the
district court’s judgment in its entirety.
Respectfully submitted.
STEVE MARSHALL
Attorney General of
Alabama
MARK BRNOVICH
Attorney General of
Arizona
LESLIE RUTLEDGE
Attorney General of
Arkansas
ASHLEY MOODY
Attorney General of
Florida
CHRISTOPHER M. CARR
Attorney General of
Georgia
CURTIS T. HILL, JR.
Attorney General of
Indiana

KEN PAXTON
Attorney General of Texas
JEFFREY C. MATEER
First Assistant
Attorney General
KYLE D. HAWKINS
Solicitor General
Counsel of Record for State
Conditional Cross-Petitioners
MATTHEW H. FREDERICK
Deputy Solicitor General
LANORA C. PETTIT
Assistant Solicitor General
OFFICE OF THE
ATTORNEY GENERAL
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Kyle.Hawkins@oag.texas.gov
(512) 936-1700

23
DEREK SCHMIDT
Attorney General of
Kansas

ROBERT HENNEKE
Counsel of Record for Individual
Conditional Cross-Petitioners

JEFF LANDRY
Attorney General of
Louisiana

TEXAS PUBLIC POLICY FOUNDATION
901 Congress Avenue
Austin, Texas 78701
Telephone: (512) 472-2700
rhenneke@texaspolicy.com

LYNN FITCH
Attorney General of
Mississippi
ERIC SCHMITT
Attorney General of
Missouri
DOUG PETERSON
Attorney General of
Nebraska
WAYNE STENEHJEM
Attorney General of
North Dakota
ALAN WILSON
Attorney General of
South Carolina
JASON R. RAVNSBORG
Attorney General of
South Dakota
HERBERT H. SLATERY, III
Attorney General of
Tennessee

24
SEAN REYES
Attorney General of
Utah
PATRICK MORRISEY
Attorney General of
West Virginia

FEBRUARY 2020

APPENDIX

TABLE

OF

C O N T E N TS
Page

Appendix A – 26 U.S.C. § 36B ...........................................1a
Appendix B – 26 U.S.C. § 4980H .....................................17a
Appendix C – 26 U.S.C. § 6056 ........................................23a
Appendix D – 42 U.S.C. § 300gg ......................................26a
Appendix E – 42 U.S.C. § 300gg-1 ..................................28a
Appendix F – 42 U.S.C. § 300gg-2...................................31a
Appendix G – 42 U.S.C. § 300gg-3...................................35a
Appendix H – 42 U.S.C. § 300gg-4 ..................................50a
Appendix I – 42 U.S.C. § 300gg-15..................................63a
Appendix J – 42 U.S.C. § 1396a(k) ..................................68a
Appendix K – 42 U.S.C. § 1396u-7(b) ..............................70a
Appendix L – 42 U.S.C. § 18081 ......................................74a
Appendix M – 42 U.S.C. § 18091 .....................................89a

(i)

1a
APPENDIX A
26 U.S.C. § 36B
Effective: December 22, 2017
(a) In general.--In the case of an applicable taxpayer,
there shall be allowed as a credit against the tax imposed
by this subtitle for any taxable year an amount equal to
the premium assistance credit amount of the taxpayer for
the taxable year.
(b) Premium assistance credit amount.--For purposes
of this section-(1) In general.--The term “premium assistance credit
amount” means, with respect to any taxable year, the
sum of the premium assistance amounts determined under paragraph (2) with respect to all coverage months
of the taxpayer occurring during the taxable year.
(2) Premium assistance amount.--The premium assistance amount determined under this subsection with respect to any coverage month is the amount equal to the
lesser of-(A) the monthly premiums for such month for 1 or
more qualified health plans offered in the individual
market within a State which cover the taxpayer, the
taxpayer’s spouse, or any dependent (as defined in
section 152) of the taxpayer and which were enrolled
in through an Exchange established by the State under 1311 of the Patient Protection and Affordable
Care Act, or
(B) the excess (if any) of-(i) the adjusted monthly premium for such month
for the applicable second lowest cost silver plan with
respect to the taxpayer, over

2a
(ii) an amount equal to 1/12 of the product of the applicable percentage and the taxpayer’s household
income for the taxable year.
(3) Other terms and rules relating to premium assistance amounts.--For purposes of paragraph (2)-(A) Applicable percentage.-(i) In general.--Except as provided in clause (ii), the
applicable percentage for any taxable year shall be
the percentage such that the applicable percentage
for any taxpayer whose household income is within
an income tier specified in the following table shall
increase, on a sliding scale in a linear manner, from
the initial premium percentage to the final premium
percentage specified in such table for such income
tier:
In the case of household income The initial
The final
(expressed as a percent of povpremium
premium
erty line) within the following
percentage percentage
income tier:
is-is-Up to 133%
2.0%
2.0%
133% up to 150%
3.0%
4.0%
150% up to 200%
4.0%
6.3%
250% up to 300%
8.05%
9.5%
(ii) Indexing.-(I) In general.--Subject to subclause (II), in the
case of taxable years beginning in any calendar
year after 2014, the initial and final applicable percentages under clause (i) (as in effect for the preceding calendar year after application of this
clause) shall be adjusted to reflect the excess of
the rate of premium growth for the preceding

3a
calendar year over the rate of income growth for
the preceding calendar year.
(II) Additional adjustment.--Except as provided
in subclause (III), in the case of any calendar year
after 2018, the percentages described in subclause
(I) shall, in addition to the adjustment under subclause (I), be adjusted to reflect the excess (if any)
of the rate of premium growth estimated under
subclause (I) for the preceding calendar year over
the rate of growth in the consumer price index for
the preceding calendar year.
(III) Failsafe.--Subclause (II) shall apply for any
calendar year only if the aggregate amount of premium tax credits under this section and cost-sharing reductions under section 1402 of the Patient
Protection and Affordable Care Act for the preceding calendar year exceeds an amount equal to
0.504 percent of the gross domestic product for
the preceding calendar year.
[(iii) Repealed. Pub.L. 111-152, Title I,
§ 1001(a)(1)(B), Mar. 30, 2010, 124 Stat. 1031]
(B) Applicable second lowest cost silver plan.--The
applicable second lowest cost silver plan with respect
to any applicable taxpayer is the second lowest cost
silver plan of the individual market in the rating area
in which the taxpayer resides which-(i) is offered through the same Exchange through
which the qualified health plans taken into account
under paragraph (2)(A) were offered, and
(ii) provides-(I) self-only coverage in the case of an applicable
taxpayer--

4a
(aa) whose tax for the taxable year is determined under section 1(c) (relating to unmarried
individuals other than surviving spouses and
heads of households) and who is not allowed a
deduction under section 151 for the taxable year
with respect to a dependent, or
(bb) who is not described in item (aa) but who
purchases only self-only coverage, and
(II) family coverage in the case of any other applicable taxpayer.
If a taxpayer files a joint return and no credit is
allowed under this section with respect to 1 of the
spouses by reason of subsection (e), the taxpayer
shall be treated as described in clause (ii)(I) unless
a deduction is allowed under section 151 for the
taxable year with respect to a dependent other
than either spouse and subsection (e) does not apply to the dependent.
(C) Adjusted monthly premium.--The adjusted
monthly premium for an applicable second lowest cost
silver plan is the monthly premium which would have
been charged (for the rating area with respect to
which the premiums under paragraph (2)(A) were determined) for the plan if each individual covered under
a qualified health plan taken into account under paragraph (2)(A) were covered by such silver plan and the
premium was adjusted only for the age of each such
individual in the manner allowed under section 2701
of the Public Health Service Act. In the case of a State
participating in the wellness discount demonstration
project under section 2705(d) of the Public Health
Service Act, the adjusted monthly premium shall be

5a
determined without regard to any premium discount
or rebate under such project.
(D) Additional benefits.--If-(i) a qualified health plan under section 1302(b)(5)
of the Patient Protection and Affordable Care Act
offers benefits in addition to the essential health
benefits required to be provided by the plan, or
(ii) a State requires a qualified health plan under
section 1311(d)(3)(B) of such Act to cover benefits in
addition to the essential health benefits required to
be provided by the plan,
the portion of the premium for the plan properly
allocable (under rules prescribed by the Secretary
of Health and Human Services) to such additional
benefits shall not be taken into account in determining either the monthly premium or the adjusted monthly premium under paragraph (2).
(E) Special rule for pediatric dental coverage.--For
purposes of determining the amount of any monthly
premium, if an individual enrolls in both a qualified
health plan and a plan described in section
1311(d)(2)(B)(ii)(I) of the Patient Protection and Affordable Care Act for any plan year, the portion of the
premium for the plan described in such section that
(under regulations prescribed by the Secretary) is
properly allocable to pediatric dental benefits which
are included in the essential health benefits required
to be provided by a qualified health plan under section
1302(b)(1)(J) of such Act shall be treated as a premium payable for a qualified health plan.
(c) Definition and rules relating to applicable taxpayers, coverage months, and qualified health plan.--For

6a
purposes of this section-(1) Applicable taxpayer.-(A) In general.--The term “applicable taxpayer”
means, with respect to any taxable year, a taxpayer
whose household income for the taxable year equals
or exceeds 100 percent but does not exceed 400 percent of an amount equal to the poverty line for a family
of the size involved.
(B) Special rule for certain individuals lawfully
present in the United States.--If-(i) a taxpayer has a household income which is not
greater than 100 percent of an amount equal to the
poverty line for a family of the size involved, and
(ii) the taxpayer is an alien lawfully present in the
United States, but is not eligible for the medicaid
program under title XIX of the Social Security Act
by reason of such alien status,
the taxpayer shall, for purposes of the credit under this section, be treated as an applicable taxpayer with a household income which is equal to
100 percent of the poverty line for a family of the
size involved.
(C) Married couples must file joint return.--If the
taxpayer is married (within the meaning of section
7703) at the close of the taxable year, the taxpayer
shall be treated as an applicable taxpayer only if the
taxpayer and the taxpayer’s spouse file a joint return
for the taxable year.
(D) Denial of credit to dependents.--No credit shall
be allowed under this section to any individual with
respect to whom a deduction under section 151 is allowable to another taxpayer for a taxable year

7a
beginning in the calendar year in which such individual’s taxable year begins.
(2) Coverage month.--For purposes of this subsection-(A) In general.--The term “coverage month” means,
with respect to an applicable taxpayer, any month if-(i) as of the first day of such month the taxpayer,
the taxpayer’s spouse, or any dependent of the taxpayer is covered by a qualified health plan described
in subsection (b)(2)(A) that was enrolled in through
an Exchange established by the State under section
1311 of the Patient Protection and Affordable Care
Act, and
(ii) the premium for coverage under such plan for
such month is paid by the taxpayer (or through advance payment of the credit under subsection (a) under section 1412 of the Patient Protection and Affordable Care Act).
(B) Exception for minimum essential coverage.-(i) In general.--The term “coverage month” shall
not include any month with respect to an individual
if for such month the individual is eligible for minimum essential coverage other than eligibility for
coverage described in section 5000A(f)(1)(C) (relating to coverage in the individual market).
(ii) Minimum essential coverage.--The term “minimum essential coverage” has the meaning given
such term by section 5000A(f).
(C) Special rule for employer-sponsored minimum
essential coverage.--For purposes of subparagraph
(B)-(i) Coverage must be affordable.--Except as provided in clause (iii), an employee shall not be treated

8a
as eligible for minimum essential coverage if such
coverage-(I) consists of an eligible employer-sponsored
plan (as defined in section 5000A(f)(2)), and
(II) the employee’s required contribution (within
the meaning of section 5000A(e)(1)(B)) with respect to the plan exceeds 9.5 percent of the applicable taxpayer’s household income.
This clause shall also apply to an individual
who is eligible to enroll in the plan by reason
of a relationship the individual bears to the
employee.
(ii) Coverage must provide minimum value.--Except as provided in clause (iii), an employee shall not
be treated as eligible for minimum essential coverage if such coverage consists of an eligible employer-sponsored plan (as defined in section
5000A(f)(2)) and the plan’s share of the total allowed
costs of benefits provided under the plan is less than
60 percent of such costs.
(iii) Employee or family must not be covered under employer plan.--Clauses (i) and (ii) shall not apply if the employee (or any individual described in
the last sentence of clause (i)) is covered under the
eligible employer-sponsored plan or the grandfathered health plan.
(iv) Indexing.--In the case of plan years beginning
in any calendar year after 2014, the Secretary shall
adjust the 9.5 percent under clause (i)(II) in the
same manner as the percentages are adjusted under
subsection (b)(3)(A)(ii).
[(D) Repealed. Pub.L. 112-10, Div. B, Title VIII,

9a
§ 1858(b)(1), Apr. 15, 2011, 125 Stat. 168]
(3) Definitions and other rules.-(A) Qualified health plan.--The term “qualified
health plan” has the meaning given such term by section 1301(a) of the Patient Protection and Affordable
Care Act, except that such term shall not include a
qualified health plan which is a catastrophic plan described in section 1302(e) of such Act.
(B) Grandfathered health plan.--The term “grandfathered health plan” has the meaning given such
term by section 1251 of the Patient Protection and Affordable Care Act.
(4) Special rules for qualified small employer health
reimbursement arrangements.-(A) In general.--The term “coverage month” shall not
include any month with respect to an employee (or any
spouse or dependent of such employee) if for such
month the employee is provided a qualified small employer health reimbursement arrangement which
constitutes affordable coverage.
(B) Denial of double benefit.--In the case of any employee who is provided a qualified small employer
health reimbursement arrangement for any coverage
month (determined without regard to subparagraph
(A)), the credit otherwise allowable under subsection
(a) to the taxpayer for such month shall be reduced
(but not below zero) by the amount described in subparagraph (C)(i)(II) for such month.
(C) Affordable coverage.--For purposes of subparagraph (A), a qualified small employer health reimbursement arrangement shall be treated as constituting affordable coverage for a month if--

10a
(i) the excess of-(I) the amount that would be paid by the employee
as the premium for such month for self-only coverage under the second lowest cost silver plan offered in the relevant individual health insurance
market, over
(II) 1/12 of the employee’s permitted benefit (as defined in section 9831(d)(3)(C)) under such arrangement, does not exceed-(ii) 1/12 of 9.5 percent of the employee’s household
income.
(D) Qualified small employer health reimbursement arrangement.--For purposes of this paragraph,
the term “qualified small employer health reimbursement arrangement” has the meaning given such term
by section 9831(d)(2).
(E) Coverage for less than entire year.--In the case
of an employee who is provided a qualified small employer health reimbursement arrangement for less
than an entire year, subparagraph (C)(i)(II) shall be
applied by substituting “the number of months during
the year for which such arrangement was provided”
for “12”.
(F) Indexing.--In the case of plan years beginning in
any calendar year after 2014, the Secretary shall adjust the 9.5 percent amount under subparagraph
(C)(ii) in the same manner as the percentages are adjusted under subsection (b)(3)(A)(ii).
(d) Terms relating to income and families.--For purposes of this section-(1) Family size.--The family size involved with respect
to any taxpayer shall be equal to the number of

11a
individuals for whom the taxpayer is allowed a deduction under section 151 (relating to allowance of deduction for personal exemptions) for the taxable year.
(2) Household income.-(A) Household income.--The term “household income” means, with respect to any taxpayer, an
amount equal to the sum of-(i) the modified adjusted gross income of the taxpayer, plus
(ii) the aggregate modified adjusted gross incomes
of all other individuals who-(I) were taken into account in determining the
taxpayer’s family size under paragraph (1), and
(II) were required to file a return of tax imposed
by section 1 for the taxable year.
(B) Modified adjusted gross income.--The term
“modified adjusted gross income” means adjusted
gross income increased by-(i) any amount excluded from gross income under
section 911,
(ii) any amount of interest received or accrued by
the taxpayer during the taxable year which is exempt from tax, and
(iii) an amount equal to the portion of the taxpayer’s
social security benefits (as defined in section 86(d))
which is not included in gross income under section
86 for the taxable year.
(3) Poverty line.-(A) In general.--The term “poverty line” has the
meaning given that term in section 2110(c)(5) of the
Social Security Act (42 U.S.C. 1397jj(c)(5)).
(B) Poverty line used.--In the case of any qualified

12a
health plan offered through an Exchange for coverage
during a taxable year beginning in a calendar year,
the poverty line used shall be the most recently published poverty line as of the 1st day of the regular enrollment period for coverage during such calendar
year.
(e) Rules for individuals not lawfully present.-(1) In general.--If 1 or more individuals for whom a taxpayer is allowed a deduction under section 151 (relating
to allowance of deduction for personal exemptions) for
the taxable year (including the taxpayer or his spouse)
are individuals who are not lawfully present-(A) the aggregate amount of premiums otherwise
taken into account under clauses (i) and (ii) of subsection (b)(2)(A) shall be reduced by the portion (if any)
of such premiums which is attributable to such individuals, and
(B) for purposes of applying this section, the determination as to what percentage a taxpayer’s household
income bears to the poverty level for a family of the
size involved shall be made under one of the following
methods:
(i) A method under which-(I) the taxpayer’s family size is determined by not
taking such individuals into account, and
(II) the taxpayer’s household income is equal to
the product of the taxpayer’s household income
(determined without regard to this subsection)
and a fraction-(aa) the numerator of which is the poverty line
for the taxpayer’s family size determined after
application of subclause (I), and

13a
(bb) the denominator of which is the poverty
line for the taxpayer’s family size determined
without regard to subclause (I).
(ii) A comparable method reaching the same result
as the method under clause (i).
(2) Lawfully present.--For purposes of this section, an
individual shall be treated as lawfully present only if the
individual is, and is reasonably expected to be for the
entire period of enrollment for which the credit under
this section is being claimed, a citizen or national of the
United States or an alien lawfully present in the United
States.
(3) Secretarial authority.--The Secretary of Health
and Human Services, in consultation with the Secretary, shall prescribe rules setting forth the methods by
which calculations of family size and household income
are made for purposes of this subsection. Such rules
shall be designed to ensure that the least burden is
placed on individuals enrolling in qualified health plans
through an Exchange and taxpayers eligible for the
credit allowable under this section.
(f) Reconciliation of credit and advance credit.-(1) In general.--The amount of the credit allowed under
this section for any taxable year shall be reduced (but
not below zero) by the amount of any advance payment
of such credit under section 1412 of the Patient Protection and Affordable Care Act.
(2) Excess advance payments.-(A) In general.--If the advance payments to a taxpayer under section 1412 of the Patient Protection
and Affordable Care Act for a taxable year exceed the
credit allowed by this section (determined without

14a
regard to paragraph (1)), the tax imposed by this
chapter for the taxable year shall be increased by the
amount of such excess.
(B) Limitation on increase.-(i) In general.--In the case of a taxpayer whose
household income is less than 400 percent of the
poverty line for the size of the family involved for
the taxable year, the amount of the increase under
subparagraph (A) shall in no event exceed the applicable dollar amount determined in accordance with
the following table (one-half of such amount in the
case of a taxpayer whose tax is determined under
section 1(c) for the taxable year):
If the household income
(expressed as a percent of
poverty line) is:

Less than 200
At least 200% but less than 300 ..................
At least 300% but less than 400 ..................

The
applicable
dollar
amount
is:
$600
$1,500
$2,500.

(ii) Indexing of amount.--In the case of any calendar year beginning after 2014, each of the dollar
amounts in the table contained under clause (i) shall
be increased by an amount equal to-(I) such dollar amount, multiplied by
(II) the cost-of-living adjustment determined under section 1(f)(3) for the calendar year, determined by substituting “calendar year 2013” for
“calendar year 2016” in subparagraph (A)(ii)

15a
thereof.
If the amount of any increase under clause (i)
is not a multiple of $50, such increase shall be
rounded to the next lowest multiple of $50.
(3) Information requirement.--Each Exchange (or
any person carrying out 1 or more responsibilities of an
Exchange under section 1311(f)(3) or 1321(c) of the Patient Protection and Affordable Care Act) shall provide
the following information to the Secretary and to the
taxpayer with respect to any health plan provided
through the Exchange:
(A) The level of coverage described in section 1302(d)
of the Patient Protection and Affordable Care Act and
the period such coverage was in effect.
(B) The total premium for the coverage without regard to the credit under this section or cost-sharing
reductions under section 1402 of such Act.
(C) The aggregate amount of any advance payment of
such credit or reductions under section 1412 of such
Act.
(D) The name, address, and TIN of the primary insured and the name and TIN of each other individual
obtaining coverage under the policy.
(E) Any information provided to the Exchange, including any change of circumstances, necessary to determine eligibility for, and the amount of, such credit.
(F) Information necessary to determine whether a
taxpayer has received excess advance payments.
(g) Regulations.--The Secretary shall prescribe such
regulations as may be necessary to carry out the provisions of this section, including regulations which provide
for--

16a
(1) the coordination of the credit allowed under this section with the program for advance payment of the credit
under section 1412 of the Patient Protection and Affordable Care Act, and
(2) the application of subsection (f) where the filing status of the taxpayer for a taxable year is different from
such status used for determining the advance payment
of the credit.

17a
APPENDIX B
26 U.S.C. § 4980H
Effective: March 23, 2018
(a) Large employers not offering health coverage.--If(1) any applicable large employer fails to offer to its fulltime employees (and their dependents) the opportunity
to enroll in minimum essential coverage under an eligible employer-sponsored plan (as defined in section
5000A(f)(2)) for any month, and
(2) at least one full-time employee of the applicable
large employer has been certified to the employer under
section 1411 of the Patient Protection and Affordable
Care Act as having enrolled for such month in a qualified health plan with respect to which an applicable premium tax credit or cost-sharing reduction is allowed or
paid with respect to the employee,
then there is hereby imposed on the employer an assessable payment equal to the product of the applicable payment amount and the number of individuals employed by
the employer as full-time employees during such month.
(b) Large employers offering coverage with employees
who qualify for premium tax credits or cost-sharing
reductions.-(1) In general.--If-(A) an applicable large employer offers to its full-time
employees (and their dependents) the opportunity to
enroll in minimum essential coverage under an eligible employer-sponsored plan (as defined in section
5000A(f)(2)) for any month, and
(B) 1 or more full-time employees of the applicable

18a
large employer has been certified to the employer under section 1411 of the Patient Protection and Affordable Care Act as having enrolled for such month in a
qualified health plan with respect to which an applicable premium tax credit or cost-sharing reduction is allowed or paid with respect to the employee,
then there is hereby imposed on the employer an assessable payment equal to the product of the number
of full-time employees of the applicable large employer described in subparagraph (B) for such month
and an amount equal to 1/12 of $3,000.
(2) Overall limitation.--The aggregate amount of tax
determined under paragraph (1) with respect to all employees of an applicable large employer for any month
shall not exceed the product of the applicable payment
amount and the number of individuals employed by the
employer as full-time employees during such month.
[(3) Repealed. Pub.L. 112-10, Div. B, Title VIII,
§ 1858(b)(4), Apr. 15, 2011, 125 Stat. 169]
(c) Definitions and special rules.--For purposes of this
section-(1) Applicable payment amount.--The term “applicable payment amount” means, with respect to any month,
1
/12 of $2,000.
(2) Applicable large employer.-(A) In general.--The term “applicable large employer” means, with respect to a calendar year, an employer who employed an average of at least 50 fulltime employees on business days during the preceding calendar year.
(B) Exemption for certain employers.-(i) In general.--An employer shall not be

19a
considered to employ more than 50 full-time employees if-(I) the employer’s workforce exceeds 50 full-time
employees for 120 days or fewer during the calendar year, and
(II) the employees in excess of 50 employed during such 120-day period were seasonal workers.
(ii) Definition of seasonal workers.--The term
“seasonal worker” means a worker who performs labor or services on a seasonal basis as defined by the
Secretary of Labor, including workers covered by
section 500.20(s)(1) of title 29, Code of Federal Regulations and retail workers employed exclusively
during holiday seasons.
(C) Rules for determining employer size.--For purposes of this paragraph-(i) Application of aggregation rule for employers.--All persons treated as a single employer under
subsection (b), (c), (m), or (o) of section 414 of the
Internal Revenue Code of 1986 shall be treated as 1
employer.
(ii) Employers not in existence in preceding
year.--In the case of an employer which was not in
existence throughout the preceding calendar year,
the determination of whether such employer is an
applicable large employer shall be based on the average number of employees that it is reasonably expected such employer will employ on business days
in the current calendar year.
(iii) Predecessors.--Any reference in this subsection to an employer shall include a reference to any
predecessor of such employer.

20a
(D) Application of employer size to assessable penalties.-(i) In general.--The number of individuals employed by an applicable large employer as full-time
employees during any month shall be reduced by 30
solely for purposes of calculating-(I) the assessable payment under subsection (a), or
(II) the overall limitation under subsection (b)(2).
(ii) Aggregation.--In the case of persons treated as
1 employer under subparagraph (C)(i), only 1 reduction under subclause (I) or (II) shall be allowed with
respect to such persons and such reduction shall be
allocated among such persons ratably on the basis
of the number of full-time employees employed by
each such person.
(E) Full-time equivalents treated as full-time employees.--Solely for purposes of determining whether
an employer is an applicable large employer under
this paragraph, an employer shall, in addition to the
number of full-time employees for any month otherwise determined, include for such month a number of
full-time employees determined by dividing the aggregate number of hours of service of employees who
are not full-time employees for the month by 120.
(F) Exemption for health coverage under TRICARE or the Department of Veterans Affairs.-Solely for purposes of determining whether an employer is an applicable large employer under this paragraph for any month, an individual shall not be taken
into account as an employee for such month if such individual has medical coverage for such month under-(i) chapter 55 of title 10, United States Code,

21a
including coverage under the TRICARE program,
or
(ii) under a health care program under chapter 17
or 18 of title 38, United States Code, as determined
by the Secretary of Veterans Affairs, in coordination with the Secretary of Health and Human Services and the Secretary.
(3) Applicable premium tax credit and cost-sharing
reduction.--The term “applicable premium tax credit
and cost-sharing reduction” means-(A) any premium tax credit allowed under section 36B,
(B) any cost-sharing reduction under section 1402 of
the Patient Protection and Affordable Care Act, and
(C) any advance payment of such credit or reduction
under section 1412 of such Act.
(4) Full-time employee.-(A) In general.--The term “full-time employee”
means, with respect to any month, an employee who
is employed on average at least 30 hours of service per
week.
(B) Hours of service.--The Secretary, in consultation
with the Secretary of Labor, shall prescribe such regulations, rules, and guidance as may be necessary to
determine the hours of service of an employee, including rules for the application of this paragraph to employees who are not compensated on an hourly basis.
(5) Inflation adjustment.-(A) In general.--In the case of any calendar year after
2014, each of the dollar amounts in subsection (b) and
paragraph (1) shall be increased by an amount equal
to the product of-(i) such dollar amount, and

22a
(ii) the premium adjustment percentage (as defined
in section 1302(c)(4) of the Patient Protection and
Affordable Care Act) for the calendar year.
(B) Rounding.--If the amount of any increase under
subparagraph (A) is not a multiple of $10, such increase shall be rounded to the next lowest multiple of
$10.
(6) Other definitions.--Any term used in this section
which is also used in the Patient Protection and Affordable Care Act shall have the same meaning as when
used in such Act.
(7) Tax nondeductible.--For denial of deduction for the
tax imposed by this section, see section 275(a)(6).
(d) Administration and procedure.-(1) In general.--Any assessable payment provided by
this section shall be paid upon notice and demand by the
Secretary, and shall be assessed and collected in the
same manner as an assessable penalty under subchapter B of chapter 68.
(2) Time for payment.--The Secretary may provide for
the payment of any assessable payment provided by this
section on an annual, monthly, or other periodic basis as
the Secretary may prescribe.
(3) Coordination with credits, etc.--The Secretary
shall prescribe rules, regulations, or guidance for the repayment of any assessable payment (including interest)
if such payment is based on the allowance or payment of
an applicable premium tax credit or cost-sharing reduction with respect to an employee, such allowance or payment is subsequently disallowed, and the assessable
payment would not have been required to be made but
for such allowance or payment.

23a
APPENDIX C
26 U.S.C. § 6056
(a) In general.--Every applicable large employer required to meet the requirements of section 4980H with respect to its full-time employees during a calendar year
shall, at such time as the Secretary may prescribe, make
a return described in subsection (b).
(b) Form and manner of return.--A return is described
in this subsection if such return-(1) is in such form as the Secretary may prescribe, and
(2) contains-(A) the name, date, and employer identification number of the employer,
(B) a certification as to whether the employer offers
to its full-time employees (and their dependents) the
opportunity to enroll in minimum essential coverage
under an eligible employer-sponsored plan (as defined
in section 5000A(f)(2)),
(C) if the employer certifies that the employer did offer to its full-time employees (and their dependents)
the opportunity to so enroll-(i) the length of any waiting period (as defined in
section 2701(b)(4) of the Public Health Service Act)
with respect to such coverage,
(ii) the months during the calendar year for which
coverage under the plan was available,
(iii) the monthly premium for the lowest cost option
in each of the enrollment categories under the plan,
and
(iv) the employer’s share of the total allowed costs
of benefits provided under the plan,

24a
[(v) Repealed. Pub.L. 112-10, Div. B, Title VIII,
§ 1858(b)(5)(B)(iv), Apr. 15, 2011, 125 Stat. 169]
(D) the number of full-time employees for each month
during the calendar year,
(E) the name, address, and TIN of each full-time employee during the calendar year and the months (if
any) during which such employee (and any dependents) were covered under any such health benefits
plans, and
(F) such other information as the Secretary may require.
The Secretary shall have the authority to review the accuracy of the information provided under this subsection, including the applicable large employer’s share under paragraph (2)(C)(iv).
(c) Statements to be furnished to individuals with respect to whom information is reported.-(1) In general.--Every person required to make a return under subsection (a) shall furnish to each full-time
employee whose name is required to be set forth in such
return under subsection (b)(2)(E) a written statement
showing-(A) the name and address of the person required to
make such return and the phone number of the information contact for such person, and
(B) the information required to be shown on the return with respect to such individual.
(2) Time for furnishing statements.--The written
statement required under paragraph (1) shall be furnished on or before January 31 of the year following the
calendar year for which the return under subsection (a)
was required to be made.

25a
(d) Coordination with other requirements.--To the
maximum extent feasible, the Secretary may provide
that-(1) any return or statement required to be provided under this section may be provided as part of any return
or statement required under section 6051 or 6055, and
(2) in the case of an applicable large employer offering
health insurance coverage of a health insurance issuer,
the employer may enter into an agreement with the issuer to include information required under this section
with the return and statement required to be provided
by the issuer under section 6055.
(e) Coverage provided by governmental units.--In the
case of any applicable large employer which is a governmental unit or any agency or instrumentality thereof, the
person appropriately designated for purposes of this section shall make the returns and statements required by
this section.
(f) Definitions.--For purposes of this section, any term
used in this section which is also used in section 4980H
shall have the meaning given such term by section 4980H.

26a
APPENDIX D
42 U.S.C. § 300gg
(a) Prohibiting discriminatory premium rates
(1) In general
With respect to the premium rate charged by a health
insurance issuer for health insurance coverage offered
in the individual or small group market-(A) such rate shall vary with respect to the particular
plan or coverage involved only by-(i) whether such plan or coverage covers an individual or family;
(ii) rating area, as established in accordance with
paragraph (2);
(iii) age, except that such rate shall not vary by
more than 3 to 1 for adults (consistent with section
300gg-6(c) of this title); and
(iv) tobacco use, except that such rate shall not vary
by more than 1.5 to 1; and
(B) such rate shall not vary with respect to the particular plan or coverage involved by any other factor not
described in subparagraph (A).
(2) Rating area
(A) In general
Each State shall establish 1 or more rating areas
within that State for purposes of applying the requirements of this subchapter.
(B) Secretarial review
The Secretary shall review the rating areas established by each State under subparagraph (A) to ensure the adequacy of such areas for purposes of carrying out the requirements of this subchapter. If the

27a
Secretary determines a State’s rating areas are not
adequate, or that a State does not establish such areas, the Secretary may establish rating areas for that
State
(3) Permissible age bands
The Secretary, in consultation with the National Association of Insurance Commissioners, shall define the
permissible age bands for rating purposes under paragraph (1)(A)(iii).
(4) Application of variations based on age or tobacco
use
With respect to family coverage under a group health
plan or health insurance coverage, the rating variations
permitted under clauses (iii) and (iv) of paragraph (1)(A)
shall be applied based on the portion of the premium
that is attributable to each family member covered under the plan or coverage.
(5) Special rule for large group market
If a State permits health insurance issuers that offer
coverage in the large group market in the State to offer
such coverage through the State Exchange (as provided
for under section 18032(f)(2)(B) of this title), the provisions of this subsection shall apply to all coverage offered in such market (other than self-insured group
health plans offered in such market) in the State.

28a
APPENDIX E
42 U.S.C. § 300gg-1
§ 300gg-1. Guaranteed availability of coverage
(a) Guaranteed issuance of coverage in the individual
and group market
Subject to subsections (b) through (e), each health insurance issuer that offers health insurance coverage in the
individual or group market in a State must accept every
employer and individual in the State that applies for such
coverage.
(b) Enrollment
(1) Restriction
A health insurance issuer described in subsection (a)
may restrict enrollment in coverage described in such
subsection to open or special enrollment periods.
(2) Establishment
A health insurance issuer described in subsection (a)
shall, in accordance with the regulations promulgated
under paragraph (3), establish special enrollment periods for qualifying events (under section 1163 of Title
29).
(3) Regulations
The Secretary shall promulgate regulations with respect to enrollment periods under paragraphs (1) and
(2).
(c) Special rules for network plans
(1) In general
In the case of a health insurance issuer that offers
health insurance coverage in the group and individual
market through a network plan, the issuer may-(A) limit the employers that may apply for such

29a
coverage to those with eligible individuals who live,
work, or reside in the service area for such network
plan; and
(B) within the service area of such plan, deny such
coverage to such employers and individuals if the issuer has demonstrated, if required, to the applicable
State authority that-(i) it will not have the capacity to deliver services
adequately to enrollees of any additional groups or
any additional individuals because of its obligations
to existing group contract holders and enrollees,
and
(ii) it is applying this paragraph uniformly to all employers and individuals without regard to the claims
experience of those individuals, employers and their
employees (and their dependents) or any health status-related factor relating to such individuals employees and dependents.
(2) 180-day suspension upon denial of coverage
An issuer, upon denying health insurance coverage in
any service area in accordance with paragraph (1)(B),
may not offer coverage in the group or individual market within such service area for a period of 180 days after the date such coverage is denied.
(d) Application of financial capacity limits
(1) In general
A health insurance issuer may deny health insurance
coverage in the group or individual market if the issuer
has demonstrated, if required, to the applicable State
authority that-(A) it does not have the financial reserves necessary
to underwrite additional coverage; and

30a
(B) it is applying this paragraph uniformly to all employers and individuals in the group or individual market in the State consistent with applicable State law
and without regard to the claims experience of those
individuals, employers and their employees (and their
dependents) or any health status-related factor relating to such individuals, employees and dependents.
(2) 180-day suspension upon denial of coverage
A health insurance issuer upon denying health insurance coverage in connection with group health plans in
accordance with paragraph (1) in a State may not offer
coverage in connection with group health plans in the
group or individual market in the State for a period of
180 days after the date such coverage is denied or until
the issuer has demonstrated to the applicable State authority, if required under applicable State law, that the
issuer has sufficient financial reserves to underwrite additional coverage, whichever is later. An applicable
State authority may provide for the application of this
subsection on a service-area-specific basis.

31a
APPENDIX F
42 U.S.C. § 300gg-2
(a) In general
Except as provided in this section, if a health insurance
issuer offers health insurance coverage in the individual
or group market, the issuer must renew or continue in
force such coverage at the option of the plan sponsor or
the individual, as applicable.
(b) General exceptions
A health insurance issuer may nonrenew or discontinue
health insurance coverage offered in connection with a
health insurance coverage offered in the group or individual market based only on one or more of the following:
(1) Nonpayment of premiums
The plan sponsor, or individual, as applicable, has failed
to pay premiums or contributions in accordance with the
terms of the health insurance coverage or the issuer has
not received timely premium payments.
(2) Fraud
The plan sponsor, or individual, as applicable, has performed an act or practice that constitutes fraud or made
an intentional misrepresentation of material fact under
the terms of the coverage.
(3) Violation of participation or contribution rates
In the case of a group health plan, the plan sponsor has
failed to comply with a material plan provision relating
to employer contribution or group participation rules,
pursuant to applicable State law.
(4) Termination of coverage
The issuer is ceasing to offer coverage in such market in
accordance with subsection (c) and applicable State law.

32a
(5) Movement outside service area
In the case of a health insurance issuer that offers
health insurance coverage in the market through a network plan, there is no longer any enrollee in connection
with such plan who lives, resides, or works in the service
area of the issuer (or in the area for which the issuer is
authorized to do business) and, in the case of the small
group market, the issuer would deny enrollment with
respect to such plan under section 2711(c)(1)(A).
(6) Association membership ceases
In the case of health insurance coverage that is made
available in the small or large group market (as the case
may be) only through one or more bona fide associations, the membership of an employer in the association
(on the basis of which the coverage is provided) ceases
but only if such coverage is terminated under this paragraph uniformly without regard to any health status-related factor relating to any covered individual.
(c) Requirements for uniform termination of coverage
(1) Particular type of coverage not offered
In any case in which an issuer decides to discontinue offering a particular type of group or individual health insurance coverage, coverage of such type may be discontinued by the issuer in accordance with applicable State
law in such market only if-(A) the issuer provides notice to each plan sponsor or
individual, as applicable, provided coverage of this
type in such market (and participants and beneficiaries covered under such coverage) of such discontinuation at least 90 days prior to the date of the discontinuation of such coverage;

33a
(B) the issuer offers to each plan sponsor or individual, as applicable, provided coverage of this type in
such market, the option to purchase all (or, in the case
of the large group market, any) other health insurance
coverage currently being offered by the issuer to a
group health plan or individual health insurance coverage in such market; and
(C) in exercising the option to discontinue coverage of
this type and in offering the option of coverage under
subparagraph (B), the issuer acts uniformly without
regard to the claims experience of those sponsors or
individuals, as applicable, or any health status-related
factor relating to any participants or beneficiaries
covered or new participants or beneficiaries who may
become eligible for such coverage.
(2) Discontinuance of all coverage
(A) In general
In any case in which a health insurance issuer elects
to discontinue offering all health insurance coverage
in the individual or group market, or all markets, in a
State, health insurance coverage may be discontinued
by the issuer only in accordance with applicable State
law and if-(i) the issuer provides notice to the applicable State
authority and to each plan sponsor or individual, as
applicable, (and participants and beneficiaries covered under such coverage) of such discontinuation
at least 180 days prior to the date of the discontinuation of such coverage; and
(ii) all health insurance issued or delivered for issuance in the State in such market (or markets) are
discontinued and coverage under such health

34a
insurance coverage in such market (or markets) is
not renewed.
(B) Prohibition on market reentry
In the case of a discontinuation under subparagraph
(A) in a market, the issuer may not provide for the issuance of any health insurance coverage in the market
and State involved during the 5-year period beginning
on the date of the discontinuation of the last health insurance coverage not so renewed.
(d) Exception for uniform modification of coverage
At the time of coverage renewal, a health insurance issuer
may modify the health insurance coverage for a product
offered to a group health plan-(1) in the large group market; or
(2) in the small group market if, for coverage that is
available in such market other than only through one or
more bona fide associations, such modification is consistent with State law and effective on a uniform basis
among group health plans with that product.
(e) Application to coverage offered only through associations
In applying this section in the case of health insurance
coverage that is made available by a health insurance issuer in the small or large group market to employers only
through one or more associations, a reference to “plan
sponsor” is deemed, with respect to coverage provided to
an employer member of the association, to include a reference to such employer.

35a
APPENDIX G
42 U.S.C. § 300gg-3
(a) In general
A group health plan and a health insurance issuer offering
group or individual health insurance coverage may not impose any preexisting condition exclusion with respect to
such plan or coverage.
(b) Definitions
For purposes of this part-(1) Preexisting condition exclusion
(A) In general
The term “preexisting condition exclusion” means,
with respect to coverage, a limitation or exclusion of
benefits relating to a condition based on the fact that
the condition was present before the date of enrollment for such coverage, whether or not any medical
advice, diagnosis, care, or treatment was recommended or received before such date.
(B) Treatment of genetic information
Genetic information shall not be treated as a condition
described in subsection (a)(1) in the absence of a diagnosis of the condition related to such information.
(2) Enrollment date
The term “enrollment date” means, with respect to an
individual covered under a group health plan or health
insurance coverage, the date of enrollment of the individual in the plan or coverage or, if earlier, the first day
of the waiting period for such enrollment.
(3) Late enrollee
The term “late enrollee” means, with respect to coverage under a group health plan, a participant or

36a
beneficiary who enrolls under the plan other than during-(A) the first period in which the individual is eligible
to enroll under the plan, or
(B) a special enrollment period under subsection (f).
(4) Waiting period
The term “waiting period” means, with respect to a
group health plan and an individual who is a potential
participant or beneficiary in the plan, the period that
must pass with respect to the individual before the individual is eligible to be covered for benefits under the
terms of the plan.
(c) Rules relating to crediting previous coverage
(1) “Creditable coverage” defined
For purposes of this subchapter, the term “creditable
coverage” means, with respect to an individual, coverage of the individual under any of the following:
(A) A group health plan.
(B) Health insurance coverage.
(C) Part A or part B of title XVIII of the Social Security Act.
(D) Title XIX of the Social Security Act, other than
coverage consisting solely of benefits under section
1928.
(E) Chapter 55 of Title 10.
(F) A medical care program of the Indian Health Service or of a tribal organization.
(G) A State health benefits risk pool.
(H) A health plan offered under chapter 89 of Title 5.
(I) A public health plan (as defined in regulations).
(J) A health benefit plan under section 2504(e) of Title
22.

37a
Such term does not include coverage consisting solely
of coverage of excepted benefits (as defined in section
300gg-91(c) of this title).
(2) Not counting periods before significant breaks in
coverage
(A) In general
A period of creditable coverage shall not be counted,
with respect to enrollment of an individual under a
group or individual health plan, if, after such period
and before the enrollment date, there was a 63-day period during all of which the individual was not covered
under any creditable coverage.
(B) Waiting period not treated as a break in coverage
For purposes of subparagraph (A) and subsection
(d)(4), any period that an individual is in a waiting period for any coverage under a group or individual
health plan (or for group health insurance coverage)
or is in an affiliation period (as defined in subsection
(g)(2)) shall not be taken into account in determining
the continuous period under subparagraph (A).
(C) TAA-eligible individuals
In the case of plan years beginning before January 1,
2014-(i) TAA pre-certification period rule
In the case of a TAA-eligible individual, the period
beginning on the date the individual has a TAA-related loss of coverage and ending on the date that is
7 days after the date of the issuance by the Secretary (or by any person or entity designated by the
Secretary) of a qualified health insurance costs
credit eligibility certificate for such individual for

38a
purposes of section 7527 of Title 26 shall not be
taken into account in determining the continuous
period under subparagraph (A).
(ii) Definitions
The terms “TAA-eligible individual” and “TAA-related loss of coverage” have the meanings given
such terms in section 300bb-5(b)(4) of this title.
(3) Method of crediting coverage
(A) Standard method
Except as otherwise provided under subparagraph
(B), for purposes of applying subsection (a)(3), a group
health plan, and a health insurance issuer offering
group or individual health insurance coverage, shall
count a period of creditable coverage without regard
to the specific benefits covered during the period.
(B) Election of alternative method
A group health plan, or a health insurance issuer offering group or individual health insurance, may elect
to apply subsection (a)(3) based on coverage of benefits within each of several classes or categories of benefits specified in regulations rather than as provided
under subparagraph (A). Such election shall be made
on a uniform basis for all participants and beneficiaries. Under such election a group health plan or issuer
shall count a period of creditable coverage with respect to any class or category of benefits if any level
of benefits is covered within such class or category.
(C) Plan notice
In the case of an election with respect to a group
health plan under subparagraph (B) (whether or not
health insurance coverage is provided in connection
with such plan), the plan shall--

39a
(i) prominently state in any disclosure statements
concerning the plan, and state to each enrollee at
the time of enrollment under the plan, that the plan
has made such election, and
(ii) include in such statements a description of the
effect of this election.
(D) Issuer notice
In the case of an election under subparagraph (B) with
respect to health insurance coverage offered by an issuer in the individual or group group [sic] market, the
issuer-(i) shall prominently state in any disclosure statements concerning the coverage, and to each employer at the time of the offer or sale of the coverage, that the issuer has made such election, and
(ii) shall include in such statements a description of
the effect of such election.
(4) Establishment of period
Periods of creditable coverage with respect to an individual shall be established through presentation of certifications described in subsection (e) or in such other
manner as may be specified in regulations.
(d) Exceptions
(1) Exclusion not applicable to certain newborns
Subject to paragraph (4), a group health plan, and a
health insurance issuer offering group or individual
health insurance coverage, may not impose any preexisting condition exclusion in the case of an individual
who, as of the last day of the 30-day period beginning
with the date of birth, is covered under creditable coverage.
(2) Exclusion not applicable to certain adopted

40a
children
Subject to paragraph (4), a group health plan, and a
health insurance issuer offering group or individual
health insurance coverage, may not impose any preexisting condition exclusion in the case of a child who is
adopted or placed for adoption before attaining 18 years
of age and who, as of the last day of the 30-day period
beginning on the date of the adoption or placement for
adoption, is covered under creditable coverage. The
previous sentence shall not apply to coverage before the
date of such adoption or placement for adoption.
(3) Exclusion not applicable to pregnancy
A group health plan, and health insurance issuer offering group or individual health insurance coverage, may
not impose any preexisting condition exclusion relating
to pregnancy as a preexisting condition.
(4) Loss if break in coverage
Paragraphs (1) and (2) shall no longer apply to an individual after the end of the first 63-day period during all
of which the individual was not covered under any creditable coverage.
(e) Certifications and disclosure of coverage
(1) Requirement for certification of period of creditable coverage
(A) In general
A group health plan, and a health insurance issuer offering group or individual health insurance coverage,
shall provide the certification described in subparagraph (B)-(i) at the time an individual ceases to be covered under the plan or otherwise becomes covered under a
COBRA continuation provision,

41a
(ii) in the case of an individual becoming covered
under such a provision, at the time the individual
ceases to be covered under such provision, and
(iii) on the request on behalf of an individual made
not later than 24 months after the date of cessation
of the coverage described in clause (i) or (ii), whichever is later.
The certification under clause (i) may be provided,
to the extent practicable, at a time consistent with
notices required under any applicable COBRA
continuation provision.
(B) Certification
The certification described in this subparagraph is a
written certification of-(i) the period of creditable coverage of the individual under such plan and the coverage (if any) under
such COBRA continuation provision, and
(ii) the waiting period (if any) (and affiliation period,
if applicable) imposed with respect to the individual
for any coverage under such plan.
(C) Issuer compliance
To the extent that medical care under a group health
plan consists of group health insurance coverage, the
plan is deemed to have satisfied the certification requirement under this paragraph if the health insurance issuer offering the coverage provides for such
certification in accordance with this paragraph.
(2) Disclosure of information on previous benefits
In the case of an election described in subsection
(c)(3)(B) by a group health plan or health insurance issuer, if the plan or issuer enrolls an individual for coverage under the plan and the individual provides a

42a
certification of coverage of the individual under paragraph (1)-(A) upon request of such plan or issuer, the entity
which issued the certification provided by the individual shall promptly disclose to such requesting plan or
issuer information on coverage of classes and categories of health benefits available under such entity’s
plan or coverage, and
(B) such entity may charge the requesting plan or issuer for the reasonable cost of disclosing such information.
(3) Regulations
The Secretary shall establish rules to prevent an entity’s failure to provide information under paragraph (1)
or (2) with respect to previous coverage of an individual
from adversely affecting any subsequent coverage of
the individual under another group health plan or health
insurance coverage.
(f) Special enrollment periods
(1) Individuals losing other coverage
A group health plan, and a health insurance issuer offering group health insurance coverage in connection
with a group health plan, shall permit an employee who
is eligible, but not enrolled, for coverage under the
terms of the plan (or a dependent of such an employee
if the dependent is eligible, but not enrolled, for coverage under such terms) to enroll for coverage under the
terms of the plan if each of the following conditions is
met:
(A) The employee or dependent was covered under a
group health plan or had health insurance coverage at
the time coverage was previously offered to the

43a
employee or dependent.
(B) The employee stated in writing at such time that
coverage under a group health plan or health insurance coverage was the reason for declining enrollment, but only if the plan sponsor or issuer (if applicable) required such a statement at such time and provided the employee with notice of such requirement
(and the consequences of such requirement) at such
time.
(C) The employee’s or dependent’s coverage described in subparagraph (A)-(i) was under a COBRA continuation provision and
the coverage under such provision was exhausted;
or
(ii) was not under such a provision and either the
coverage was terminated as a result of loss of eligibility for the coverage (including as a result of legal
separation, divorce, death, termination of employment, or reduction in the number of hours of employment) or employer contributions toward such
coverage were terminated.
(D) Under the terms of the plan, the employee requests such enrollment not later than 30 days after
the date of exhaustion of coverage described in subparagraph (C)(i) or termination of coverage or employer contribution described in subparagraph
(C)(ii).
(2) For dependent beneficiaries
(A) In general
If-(i) a group health plan makes coverage available
with respect to a dependent of an individual,

44a
(ii) the individual is a participant under the plan (or
has met any waiting period applicable to becoming
a participant under the plan and is eligible to be enrolled under the plan but for a failure to enroll during a previous enrollment period), and
(iii) a person becomes such a dependent of the individual through marriage, birth, or adoption or placement for adoption,
the group health plan shall provide for a dependent special enrollment period described in subparagraph (B) during which the person (or, if not otherwise enrolled, the individual) may be enrolled
under the plan as a dependent of the individual,
and in the case of the birth or adoption of a child,
the spouse of the individual may be enrolled as a
dependent of the individual if such spouse is otherwise eligible for coverage.
(B) Dependent special enrollment period
A dependent special enrollment period under this subparagraph shall be a period of not less than 30 days
and shall begin on the later of-(i) the date dependent coverage is made available,
or
(ii) the date of the marriage, birth, or adoption or
placement for adoption (as the case may be) described in subparagraph (A)(iii).
(C) No waiting period
If an individual seeks to enroll a dependent during the
first 30 days of such a dependent special enrollment
period, the coverage of the dependent shall become effective-(i) in the case of marriage, not later than the first

45a
day of the first month beginning after the date the
completed request for enrollment is received;
(ii) in the case of a dependent’s birth, as of the date
of such birth; or
(iii) in the case of a dependent’s adoption or placement for adoption, the date of such adoption or
placement for adoption.
(3) Special rules for application in case of Medicaid
and CHIP
(A) In general
A group health plan, and a health insurance issuer offering group health insurance coverage in connection
with a group health plan, shall permit an employee
who is eligible, but not enrolled, for coverage under
the terms of the plan (or a dependent of such an employee if the dependent is eligible, but not enrolled, for
coverage under such terms) to enroll for coverage under the terms of the plan if either of the following conditions is met:
(i) Termination of Medicaid or CHIP coverage
The employee or dependent is covered under a Medicaid plan under Title XIX of the Social Security Act
or under a State child health plan under Title XXI
of such Act and coverage of the employee or dependent under such a plan is terminated as a result of
loss of eligibility for such coverage and the employee requests coverage under the group health
plan (or health insurance coverage) not later than 60
days after the date of termination of such coverage.
(ii) Eligibility for employment assistance under
Medicaid or CHIP
The employee or dependent becomes eligible for

46a
assistance, with respect to coverage under the
group health plan or health insurance coverage, under such Medicaid plan or State child health plan
(including under any waiver or demonstration project conducted under or in relation to such a plan), if
the employee requests coverage under the group
health plan or health insurance coverage not later
than 60 days after the date the employee or dependent is determined to be eligible for such assistance.
(B) Coordination with Medicaid and CHIP
(i) Outreach to employees regarding availability
of Medicaid and CHIP coverage
(I) In general
Each employer that maintains a group health plan
in a State that provides medical assistance under
a State Medicaid plan under Title XIX of the Social Security Act, or child health assistance under
a State child health plan under Title XXI of such
Act, in the form of premium assistance for the
purchase of coverage under a group health plan,
shall provide to each employee a written notice informing the employee of potential opportunities
then currently available in the State in which the
employee resides for premium assistance under
such plans for health coverage of the employee or
the employee’s dependents. For purposes of compliance with this subclause, the employer may use
any State-specific model notice developed in accordance with section 1181(f)(3)(B)(i)(II) of Title
29.
(II) Option to provide concurrent with provision of plan materials to employee

47a
An employer may provide the model notice applicable to the State in which an employee resides
concurrent with the furnishing of materials notifying the employee of health plan eligibility, concurrent with materials provided to the employee
in connection with an open season or election process conducted under the plan, or concurrent with
the furnishing of the summary plan description as
provided in section 1024(b) of Title 29.
(ii) Disclosure about group health plan benefits
to States for Medicaid and CHIP eligible individuals
In the case of an enrollee in a group health plan who
is covered under a Medicaid plan of a State under
Title XIX of the Social Security Act or under a State
child health plan under Title XXI of such Act, the
plan administrator of the group health plan shall
disclose to the State, upon request, information
about the benefits available under the group health
plan in sufficient specificity, as determined under
regulations of the Secretary of Health and Human
Services in consultation with the Secretary that require use of the model coverage coordination disclosure form developed under section 311(b)(1)(C) of
the Children’s Health Insurance Reauthorization
Act of 2009, so as to permit the State to make a determination (under paragraph (2)(B), (3), or (10) of
section 2105(c) of the Social Security Act or otherwise) concerning the cost-effectiveness of the State
providing medical or child health assistance through
premium assistance for the purchase of coverage
under such group health plan and in order for the

48a
State to provide supplemental benefits required under paragraph (10)(E) of such section or other authority.
(g) Use of affiliation period by HMOs as alternative to
preexisting condition exclusion
(1) In general
A health maintenance organization which offers health
insurance coverage in connection with a group health
plan and which does not impose any preexisting condition exclusion allowed under subsection (a) with respect
to any particular coverage option may impose an affiliation period for such coverage option, but only if-(A) such period is applied uniformly without regard to
any health status-related factors; and
(B) such period does not exceed 2 months (or 3
months in the case of a late enrollee).
(2) Affiliation period
(A) “Affiliation period” defined
For purposes of this subchapter, the term “affiliation
period” means a period which, under the terms of the
health insurance coverage offered by the health
maintenance organization, must expire before the
health insurance coverage becomes effective. The organization is not required to provide health care services or benefits during such period and no premium
shall be charged to the participant or beneficiary for
any coverage during the period.
(B) Beginning
Such period shall begin on the enrollment date.
(C) Runs concurrently with waiting periods
An affiliation period under a plan shall run concurrently with any waiting period under the plan.

49a
(3) Alternative methods
A health maintenance organization described in paragraph (1) may use alternative methods, from those described in such paragraph, to address adverse selection
as approved by the State insurance commissioner or official or officials designated by the State to enforce the
requirements of this part for the State involved with respect to such issuer.

50a
APPENDIX H
42 U.S.C. § 300gg-4
(a) In general
A group health plan and a health insurance issuer offering
group or individual health insurance coverage may not establish rules for eligibility (including continued eligibility)
of any individual to enroll under the terms of the plan or
coverage based on any of the following health status-related factors in relation to the individual or a dependent
of the individual:
(1) Health status.
(2) Medical condition (including both physical and mental illnesses).
(3) Claims experience.
(4) Receipt of health care.
(5) Medical history.
(6) Genetic information.
(7) Evidence of insurability (including conditions arising out of acts of domestic violence).
(8) Disability.
(9) Any other health status-related factor determined
appropriate by the Secretary.
(b) In premium contributions
(1) In general
A group health plan, and a health insurance issuer offering group or individual health insurance coverage,
may not require any individual (as a condition of enrollment or continued enrollment under the plan) to pay a
premium or contribution which is greater than such premium or contribution for a similarly situated individual
enrolled in the plan on the basis of any health status-

51a
related factor in relation to the individual or to an individual enrolled under the plan as a dependent of the individual.
(2) Construction
Nothing in paragraph (1) shall be construed-(A) to restrict the amount that an employer or individual may be charged for coverage under a group
health plan except as provided in paragraph (3) or individual health coverage, as the case may be; or
(B) to prevent a group health plan, and a health insurance issuer offering group health insurance coverage,
from establishing premium discounts or rebates or
modifying otherwise applicable copayments or deductibles in return for adherence to programs of
health promotion and disease prevention.
(3) No group-based discrimination on basis of genetic information
(A) In general
For purposes of this section, a group health plan, and
health insurance issuer offering group health insurance coverage in connection with a group health plan,
may not adjust premium or contribution amounts for
the group covered under such plan on the basis of genetic information.
(B) Rule of construction
Nothing in subparagraph (A) or in paragraphs (1) and
(2) of subsection (d) shall be construed to limit the
ability of a health insurance issuer offering group or
individual health insurance coverage to increase the
premium for an employer based on the manifestation
of a disease or disorder of an individual who is enrolled
in the plan. In such case, the manifestation of a disease

52a
or disorder in one individual cannot also be used as
genetic information about other group members and
to further increase the premium for the employer.
(c) Genetic testing
(1) Limitation on requesting or requiring genetic
testing
A group health plan, and a health insurance issuer offering health insurance coverage in connection with a
group health plan, shall not request or require an individual or a family member of such individual to undergo
a genetic test.
(2) Rule of construction
Paragraph (1) shall not be construed to limit the authority of a health care professional who is providing health
care services to an individual to request that such individual undergo a genetic test.
(3) Rule of construction regarding payment
(A) In general
Nothing in paragraph (1) shall be construed to preclude a group health plan, or a health insurance issuer
offering health insurance coverage in connection with
a group health plan, from obtaining and using the results of a genetic test in making a determination regarding payment (as such term is defined for the purposes of applying the regulations promulgated by the
Secretary under part C of title XI of the Social Security Act and section 264 of the Health Insurance Portability and Accountability Act of 1996, as may be revised from time to time) consistent with subsection
(a).
(B) Limitation
For purposes of subparagraph (A), a group health

53a
plan, or a health insurance issuer offering health insurance coverage in connection with a group health
plan, may request only the minimum amount of information necessary to accomplish the intended purpose.
(4) Research exception
Notwithstanding paragraph (1), a group health plan, or
a health insurance issuer offering health insurance coverage in connection with a group health plan, may request, but not require, that a participant or beneficiary
undergo a genetic test if each of the following conditions
is met:
(A) The request is made pursuant to research that
complies with part 46 of title 45, Code of Federal Regulations, or equivalent Federal regulations, and any
applicable State or local law or regulations for the protection of human subjects in research.
(B) The plan or issuer clearly indicates to each participant or beneficiary, or in the case of a minor child, to
the legal guardian of such beneficiary, to whom the
request is made that-(i) compliance with the request is voluntary; and
(ii) non-compliance will have no effect on enrollment status or premium or contribution amounts.
(C) No genetic information collected or acquired under this paragraph shall be used for underwriting purposes.
(D) The plan or issuer notifies the Secretary in writing that the plan or issuer is conducting activities pursuant to the exception provided for under this paragraph, including a description of the activities conducted.

54a
(E) The plan or issuer complies with such other conditions as the Secretary may by regulation require for
activities conducted under this paragraph.
(d) Prohibition on collection of genetic information
(1) In general
A group health plan, and a health insurance issuer offering health insurance coverage in connection with a
group health plan, shall not request, require, or purchase genetic information for underwriting purposes (as
defined in section 300gg-91 of this title).
(2) Prohibition on collection of genetic information
prior to enrollment
A group health plan, and a health insurance issuer offering health insurance coverage in connection with a
group health plan, shall not request, require, or purchase genetic information with respect to any individual
prior to such individual’s enrollment under the plan or
coverage in connection with such enrollment.
(3) Incidental collection
If a group health plan, or a health insurance issuer offering health insurance coverage in connection with a
group health plan, obtains genetic information incidental to the requesting, requiring, or purchasing of
other information concerning any individual, such request, requirement, or purchase shall not be considered
a violation of paragraph (2) if such request, requirement, or purchase is not in violation of paragraph (1).
(e) Application to all plans
The provisions of subsections (a)(6), (b)(3), (c), and (d) and
subsection (b)(1) and section 300gg-3 of this title with respect to genetic information, shall apply to group health
plans and health insurance issuers without regard to

55a
section 300gg-21(a) of this title.
(f) Genetic information of a fetus or embryo
Any reference in this part to genetic information concerning an individual or family member of an individual shall(1) with respect to such an individual or family member
of an individual who is a pregnant woman, include genetic information of any fetus carried by such pregnant
woman; and
(2) with respect to an individual or family member utilizing an assisted reproductive technology, include genetic information of any embryo legally held by the individual or family member.
(j) Programs of health promotion or disease prevention
(1) General provisions
(A) General rule
For purposes of subsection (b)(2)(B), a program of
health promotion or disease prevention (referred to in
this subsection as a “wellness program”) shall be a
program offered by an employer that is designed to
promote health or prevent disease that meets the applicable requirements of this subsection.
(B) No conditions based on health status factor
If none of the conditions for obtaining a premium discount or rebate or other reward for participation in a
wellness program is based on an individual satisfying
a standard that is related to a health status factor,
such wellness program shall not violate this section if
participation in the program is made available to all
similarly situated individuals and the requirements of
paragraph (2) are complied with.
(C) Conditions based on health status factor
If any of the conditions for obtaining a premium

56a
discount or rebate or other reward for participation in
a wellness program is based on an individual satisfying a standard that is related to a health status factor,
such wellness program shall not violate this section if
the requirements of paragraph (3) are complied with.
(2) Wellness programs not subject to requirements
If none of the conditions for obtaining a premium discount or rebate or other reward under a wellness program as described in paragraph (1)(B) are based on an
individual satisfying a standard that is related to a
health status factor (or if such a wellness program does
not provide such a reward), the wellness program shall
not violate this section if participation in the program is
made available to all similarly situated individuals. The
following programs shall not have to comply with the requirements of paragraph (3) if participation in the program is made available to all similarly situated individuals:
(A) A program that reimburses all or part of the cost
for memberships in a fitness center.
(B) A diagnostic testing program that provides a reward for participation and does not base any part of
the reward on outcomes.
(C) A program that encourages preventive care related to a health condition through the waiver of the
copayment or deductible requirement under group
health plan for the costs of certain items or services
related to a health condition (such as prenatal care or
well-baby visits).
(D) A program that reimburses individuals for the
costs of smoking cessation programs without regard
to whether the individual quits smoking.

57a
(E) A program that provides a reward to individuals
for attending a periodic health education seminar.
(3) Wellness programs subject to requirements
If any of the conditions for obtaining a premium discount, rebate, or reward under a wellness program as
described in paragraph (1)(C) is based on an individual
satisfying a standard that is related to a health status
factor, the wellness program shall not violate this section if the following requirements are complied with:
(A) The reward for the wellness program, together
with the reward for other wellness programs with respect to the plan that requires satisfaction of a standard related to a health status factor, shall not exceed
30 percent of the cost of employee-only coverage under the plan. If, in addition to employees or individuals, any class of dependents (such as spouses or
spouses and dependent children) may participate fully
in the wellness program, such reward shall not exceed
30 percent of the cost of the coverage in which an employee or individual and any dependents are enrolled.
For purposes of this paragraph, the cost of coverage
shall be determined based on the total amount of employer and employee contributions for the benefit
package under which the employee is (or the employee and any dependents are) receiving coverage. A
reward may be in the form of a discount or rebate of a
premium or contribution, a waiver of all or part of a
cost-sharing mechanism (such as deductibles, copayments, or coinsurance), the absence of a surcharge, or
the value of a benefit that would otherwise not be provided under the plan. The Secretaries of Labor,
Health and Human Services, and the Treasury may

58a
increase the reward available under this subparagraph to up to 50 percent of the cost of coverage if the
Secretaries determine that such an increase is appropriate.
(B) The wellness program shall be reasonably designed to promote health or prevent disease. A program complies with the preceding sentence if the program has a reasonable chance of improving the health
of, or preventing disease in, participating individuals
and it is not overly burdensome, is not a subterfuge
for discriminating based on a health status factor, and
is not highly suspect in the method chosen to promote
health or prevent disease.
(C) The plan shall give individuals eligible for the program the opportunity to qualify for the reward under
the program at least once each year.
(D) The full reward under the wellness program shall
be made available to all similarly situated individuals.
For such purpose, among other things:
(i) The reward is not available to all similarly situated individuals for a period unless the wellness program allows-(I) for a reasonable alternative standard (or
waiver of the otherwise applicable standard) for
obtaining the reward for any individual for whom,
for that period, it is unreasonably difficult due to
a medical condition to satisfy the otherwise applicable standard; and
(II) for a reasonable alternative standard (or
waiver of the otherwise applicable standard) for
obtaining the reward for any individual for whom,
for that period, it is medically inadvisable to

59a
attempt to satisfy the otherwise applicable standard.
(ii) If reasonable under the circumstances, the plan
or issuer may seek verification, such as a statement
from an individual’s physician, that a health status
factor makes it unreasonably difficult or medically
inadvisable for the individual to satisfy or attempt
to satisfy the otherwise applicable standard.
(E) The plan or issuer involved shall disclose in all
plan materials describing the terms of the wellness
program the availability of a reasonable alternative
standard (or the possibility of waiver of the otherwise
applicable standard) required under subparagraph
(D). If plan materials disclose that such a program is
available, without describing its terms, the disclosure
under this subparagraph shall not be required.
(k) Existing programs
Nothing in this section shall prohibit a program of health
promotion or disease prevention that was established
prior to March 23, 2010, and applied with all applicable
regulations, and that is operating on such date, from continuing to be carried out for as long as such regulations
remain in effect.
(l) Wellness program demonstration project
(1) In general
Not later than July 1, 2014, the Secretary, in consultation with the Secretary of the Treasury and the Secretary of Labor, shall establish a 10-State demonstration
project under which participating States shall apply the
provisions of subsection (j) to programs of health promotion offered by a health insurance issuer that offers
health insurance coverage in the individual market in

60a
such State.
(2) Expansion of demonstration project
If the Secretary, in consultation with the Secretary of
the Treasury and the Secretary of Labor, determines
that the demonstration project described in paragraph
(1) is effective, such Secretaries may, beginning on July
1, 2017 expand such demonstration project to include
additional participating States.
(3) Requirements
(A) Maintenance of coverage
The Secretary, in consultation with the Secretary of
the Treasury and the Secretary of Labor, shall not approve the participation of a State in the demonstration
project under this section unless the Secretaries determine that the State’s project is designed in a manner that-(i) will not result in any decrease in coverage; and
(ii) will not increase the cost to the Federal Government in providing credits under section 36B of Title
26 or cost-sharing assistance under section 18071 of
this title.
(B) Other requirements
States that participate in the demonstration project
under this subsection-(i) may permit premium discounts or rebates or the
modification of otherwise applicable copayments or
deductibles for adherence to, or participation in, a
reasonably designed program of health promotion
and disease prevention;
(ii) shall ensure that requirements of consumer protection are met in programs of health promotion in
the individual market;

61a
(iii) shall require verification from health insurance
issuers that offer health insurance coverage in the
individual market of such State that premium discounts-(I) do not create undue burdens for individuals insured in the individual market;
(II) do not lead to cost shifting; and
(III) are not a subterfuge for discrimination;
(iv) shall ensure that consumer data is protected in
accordance with the requirements of section 264(c)
of the Health Insurance Portability and Accountability Act of 1996 (42 U.S.C. 1320d-2 note); and
(v) shall ensure and demonstrate to the satisfaction
of the Secretary that the discounts or other rewards
provided under the project reflect the expected
level of participation in the wellness program involved and the anticipated effect the program will
have on utilization or medical claim costs.
(m) Report
(1) In general
Not later than 3 years after March 23, 2010, the Secretary, in consultation with the Secretary of the Treasury
and the Secretary of Labor, shall submit a report to the
appropriate committees of Congress concerning-(A) the effectiveness of wellness programs (as defined
in subsection (j)) in promoting health and preventing
disease;
(B) the impact of such wellness programs on the access to care and affordability of coverage for participants and non-participants of such programs;
(C) the impact of premium-based and cost-sharing incentives on participant behavior and the role of such

62a
programs in changing behavior; and
(D) the effectiveness of different types of rewards.
(2) Data collection
In preparing the report described in paragraph (1), the
Secretaries shall gather relevant information from employers who provide employees with access to wellness
programs, including State and Federal agencies.
(n) Regulations
Nothing in this section shall be construed as prohibiting
the Secretaries of Labor, Health and Human Services, or
the Treasury from promulgating regulations in connection with this section.

63a
APPENDIX I
42 U.S.C. § 300gg-15
(a) In general
Not later than 12 months after March 23, 2010, the Secretary shall develop standards for use by a group health
plan and a health insurance issuer offering group or individual health insurance coverage, in compiling and providing to applicants, enrollees, and policyholders or certificate holders a summary of benefits and coverage explanation that accurately describes the benefits and coverage
under the applicable plan or coverage. In developing such
standards, the Secretary shall consult with the National
Association of Insurance Commissioners (referred to in
this section as the “NAIC”), a working group composed of
representatives of health insurance-related consumer advocacy organizations, health insurance issuers, health
care professionals, patient advocates including those representing individuals with limited English proficiency,
and other qualified individuals.
(b) Requirements
The standards for the summary of benefits and coverage
developed under subsection (a) shall provide for the following:
(1) Appearance
The standards shall ensure that the summary of benefits and coverage is presented in a uniform format that
does not exceed 4 pages in length and does not include
print smaller than 12-point font.
(2) Language
The standards shall ensure that the summary is presented in a culturally and linguistically appropriate

64a
manner and utilizes terminology understandable by the
average plan enrollee.
(3) Contents
The standards shall ensure that the summary of benefits and coverage includes-(A) uniform definitions of standard insurance terms
and medical terms (consistent with subsection (g)) so
that consumers may compare health insurance coverage and understand the terms of coverage (or exception to such coverage);
(B) a description of the coverage, including cost sharing for-(i) each of the categories of the essential health benefits described in subparagraphs (A) through (J) of
section 18022(b)(1) of this title; and
(ii) other benefits, as identified by the Secretary;
(C) the exceptions, reductions, and limitations on coverage;
(D) the cost-sharing provisions, including deductible,
coinsurance, and co-payment obligations;
(E) the renewability and continuation of coverage
provisions;
(F) a coverage facts label that includes examples to
illustrate common benefits scenarios, including pregnancy and serious or chronic medical conditions and
related cost sharing, such scenarios to be based on
recognized clinical practice guidelines;
(G) a statement of whether the plan or coverage-(i) provides minimum essential coverage (as defined
under section 5000A(f) of Title 26); and
(ii) ensures that the plan or coverage share of the
total allowed costs of benefits provided under the

65a
plan or coverage is not less than 60 percent of such
costs;
(H) a statement that the outline is a summary of the
policy or certificate and that the coverage document
itself should be consulted to determine the governing
contractual provisions; and
(I) a contact number for the consumer to call with additional questions and an Internet web address where
a copy of the actual individual coverage policy or
group certificate of coverage can be reviewed and obtained.
(c) Periodic review and updating
The Secretary shall periodically review and update, as appropriate, the standards developed under this section.
(d) Requirement to provide
(1) In general
Not later than 24 months after March 23, 2010, each entity described in paragraph (3) shall provide, prior to
any enrollment restriction, a summary of benefits and
coverage explanation pursuant to the standards developed by the Secretary under subsection (a) to-(A) an applicant at the time of application;
(B) an enrollee prior to the time of enrollment or
reenrollment, as applicable; and
(C) a policyholder or certificate holder at the time of
issuance of the policy or delivery of the certificate.
(2) Compliance
An entity described in paragraph (3) is deemed to be in
compliance with this section if the summary of benefits
and coverage described in subsection (a) is provided in
paper or electronic form.
(3) Entities in general

66a
An entity described in this paragraph is-(A) a health insurance issuer (including a group
health plan that is not a self-insured plan) offering
health insurance coverage within the United States;
or
(B) in the case of a self-insured group health plan, the
plan sponsor or designated administrator of the plan
(as such terms are defined in section 1002(16) of Title
29).
(4) Notice of modifications
If a group health plan or health insurance issuer makes
any material modification in any of the terms of the plan
or coverage involved (as defined for purposes of section
1022 of Title 29) that is not reflected in the most recently
provided summary of benefits and coverage, the plan or
issuer shall provide notice of such modification to enrollees not later than 60 days prior to the date on which
such modification will become effective.
(e) Preemption
The standards developed under subsection (a) shall
preempt any related State standards that require a summary of benefits and coverage that provides less information to consumers than that required to be provided
under this section, as determined by the Secretary.
(f) Failure to provide
An entity described in subsection (d)(3) that willfully fails
to provide the information required under this section
shall be subject to a fine of not more than $1,000 for each
such failure. Such failure with respect to each enrollee
shall constitute a separate offense for purposes of this
subsection.
(g) Development of standard definitions

67a
(1) In general
The Secretary shall, by regulation, provide for the development of standards for the definitions of terms used
in health insurance coverage, including the insurancerelated terms described in paragraph (2) and the medical terms described in paragraph (3).
(2) Insurance-related terms
The insurance-related terms described in this paragraph are premium, deductible, co-insurance, co-payment, out-of-pocket limit, preferred provider, non-preferred provider, out-of-network co-payments, UCR
(usual, customary and reasonable) fees, excluded services, grievance and appeals, and such other terms as
the Secretary determines are important to define so
that consumers may compare health insurance coverage
and understand the terms of their coverage.
(3) Medical terms
The medical terms described in this paragraph are hospitalization, hospital outpatient care, emergency room
care, physician services, prescription drug coverage,
durable medical equipment, home health care, skilled
nursing care, rehabilitation services, hospice services,
emergency medical transportation, and such other
terms as the Secretary determines are important to define so that consumers may compare the medical benefits offered by health insurance and understand the extent of those medical benefits (or exceptions to those
benefits).

68a
APPENDIX J
42 U.S.C. § 1396a(k)
§ 1396a. State plans for medical assistance
Effective: October 1, 2019
(k)Minimum coverage for individuals with income at
or below 133 percent of the poverty line
(1) The medical assistance provided to an individual described in subclause (VIII) of subsection (a)(10)(A)(i) shall
consist of benchmark coverage described in section
1396u-7(b)(1) of this title or benchmark equivalent coverage described in section 1396u-7(b)(2) of this title. Such
medical assistance shall be provided subject to the requirements of section 1396u-7 of this title, without regard
to whether a State otherwise has elected the option to provide medical assistance through coverage under that section, unless an individual described in subclause (VIII) of
subsection (a)(10)(A)(i) is also an individual for whom, under subparagraph (B) of section 1396u-7(a)(2) of this title,
the State may not require enrollment in benchmark coverage described in subsection (b)(1) of section 1396u-7 of
this title or benchmark equivalent coverage described in
subsection (b)(2) of that section.
(2) Beginning with the first day of any fiscal year quarter
that begins on or after April 1, 2010, and before January
1, 2014, a State may elect through a State plan amendment to provide medical assistance to individuals who
would be described in subclause (VIII) of subsection
(a)(10)(A)(i) if that subclause were effective before January 1, 2014. A State may elect to phase-in the extension of
eligibility for medical assistance to such individuals based

69a
on income, so long as the State does not extend such eligibility to individuals described in such subclause with
higher income before making individuals described in
such subclause with lower income eligible for medical assistance.
(3) If an individual described in subclause (VIII) of subsection (a)(10)(A)(i) is the parent of a child who is under
19 years of age (or such higher age as the State may have
elected) who is eligible for medical assistance under the
State plan or under a waiver of such plan (under that subclause or under a State plan amendment under paragraph
(2), the individual may not be enrolled under the State
plan unless the individual’s child is enrolled under the
State plan or under a waiver of the plan or is enrolled in
other health insurance coverage. For purposes of the preceding sentence, the term “parent” includes an individual
treated as a caretaker relative for purposes of carrying
out section 1396u-1 of this title.

70a
APPENDIX K
42 U.S.C. § 1396u-7(b)
§ 1396u-7. State flexibility in benefit packages
Effective: January 1, 2014
(b) Benchmark benefit packages
(1) In general
For purposes of subsection (a)(1), subject to paragraphs
(5) and (6), each of the following coverages shall be considered to be benchmark coverage:
(A) FEHBP-equivalent health insurance coverage
The standard Blue Cross/Blue Shield preferred provider option service benefit plan, described in and offered under section 8903(1) of Title 5.
(B) State employee coverage
A health benefits coverage plan that is offered and
generally available to State employees in the State involved.
(C) Coverage offered through HMO
The health insurance coverage plan that-(i) is offered by a health maintenance organization
(as defined in section 300gg-91(b)(3) of this title),
and
(ii) has the largest insured commercial, non-medicaid enrollment of covered lives of such coverage
plans offered by such a health maintenance organization in the State involved.
(D) Secretary-approved coverage
Any other health benefits coverage that the Secretary
determines, upon application by a State, provides appropriate coverage for the population proposed to be

71a
provided such coverage.
(2) Benchmark-equivalent coverage
For purposes of subsection (a)(1), subject to paragraphs
(5) and (6) coverage that meets the following requirement shall be considered to be benchmark-equivalent
coverage:
(A) Inclusion of basic services
The coverage includes benefits for items and services
within each of the following categories of basic services:
(i) Inpatient and outpatient hospital services.
(ii) Physicians’ surgical and medical services.
(iii) Laboratory and x-ray services.
(iv) Coverage of prescription drugs.
(v) Mental health services.
(vi) Well-baby and well-child care, including ageappropriate immunizations.
(vii) Other appropriate preventive services, as designated by the Secretary.
(B) Aggregate actuarial value equivalent to
benchmark package
The coverage has an aggregate actuarial value that is
at least actuarially equivalent to one of the benchmark benefit packages described in paragraph (1).
(C) Substantial actuarial value for additional services included in benchmark package
With respect to each of the following categories of additional services for which coverage is provided under
the benchmark benefit package used under subparagraph (B), the coverage has an actuarial value that is
equal to at least 75 percent of the actuarial value of
the coverage of that category of services in such

72a
package:
(i) Vision services.
(ii) Hearing services.
(3) Determination of actuarial value
The actuarial value of coverage of benchmark benefit
packages shall be set forth in an actuarial opinion in an
actuarial report that has been prepared-(A) by an individual who is a member of the American
Academy of Actuaries;
(B) using generally accepted actuarial principles and
methodologies;
(C) using a standardized set of utilization and price
factors;
(D) using a standardized population that is representative of the population involved;
(E) applying the same principles and factors in comparing the value of different coverage (or categories
of services);
(F) without taking into account any differences in
coverage based on the method of delivery or means of
cost control or utilization used; and
(G) taking into account the ability of a State to reduce
benefits by taking into account the increase in actuarial value of benefits coverage offered under this
subchapter that results from the limitations on cost
sharing under such coverage.
The actuary preparing the opinion shall select and specify in the memorandum the standardized set and population to be used under subparagraphs (C) and (D).
(4) Coverage of rural health clinic and FQHC services
Notwithstanding the previous provisions of this section,

73a
a State may not provide for medical assistance through
enrollment of an individual with benchmark coverage or
benchmark equivalent coverage under this section unless-(A) the individual has access, through such coverage
or otherwise, to services described in subparagraphs
(B) and (C) of section 1396d(a)(2) of this title; and
(B) payment for such services is made in accordance
with the requirements of section 1396a(bb) of this title.
(5) Minimum standards
Effective January 1, 2014, any benchmark benefit package under paragraph (1) or benchmark equivalent coverage under paragraph (2) must provide at least essential health benefits as described in section 18022(b) of
this title.

74a
APPENDIX L
42 U.S.C. § 18081
§ 18081. Procedures for determining eligibility for Exchange participation, premium tax credits and reduced
cost-sharing, and individual responsibility exemptions
Effective: December 13, 2016
(a) Establishment of program
The Secretary shall establish a program meeting the requirements of this section for determining-(1) whether an individual who is to be covered in the individual market by a qualified health plan offered
through an Exchange, or who is claiming a premium tax
credit or reduced cost-sharing, meets the requirements
of sections 18032(f)(3), 18071(e), and 18082(d) of this title and section 36B(e) of Title 26 that the individual be a
citizen or national of the United States or an alien lawfully present in the United States;
(2) in the case of an individual claiming a premium tax
credit or reduced cost-sharing under section 36B of Title 26 or section 18071 of this title-(A) whether the individual meets the income and coverage requirements of such sections; and
(B) the amount of the tax credit or reduced cost-sharing;
(3) whether an individual’s coverage under an employer-sponsored health benefits plan is treated as unaffordable under sections 36B(c)(2)(C) and 5000A(e)(2)
of Title 26; and
(4) whether to grant a certification under section
18031(d)(4)(H) of this title attesting that, for purposes

75a
of the individual responsibility requirement under section 5000A of Title 26, an individual is entitled to an exemption from either the individual responsibility requirement or the penalty imposed by such section.
(b) Information required to be provided by applicants
(1) In general
An applicant for enrollment in a qualified health plan offered through an Exchange in the individual market
shall provide-(A) the name, address, and date of birth of each individual who is to be covered by the plan (in this subsection referred to as an “enrollee”); and
(B) the information required by any of the following
paragraphs that is applicable to an enrollee.
(2) Citizenship or immigration status
The following information shall be provided with respect to every enrollee:
(A) In the case of an enrollee whose eligibility is based
on an attestation of citizenship of the enrollee, the enrollee’s social security number.
(B) In the case of an individual whose eligibility is
based on an attestation of the enrollee’s immigration
status, the enrollee’s social security number (if applicable) and such identifying information with respect
to the enrollee’s immigration status as the Secretary,
after consultation with the Secretary of Homeland Security, determines appropriate.
(3) Eligibility and amount of tax credit or reduced
cost-sharing
In the case of an enrollee with respect to whom a premium tax credit or reduced cost-sharing under section
36B of Title 26 or section 18071 of this title is being

76a
claimed, the following information:
(A) Information regarding income and family size
The information described in section 6103(l)(21) of Title 26 for the taxable year ending with or within the
second calendar year preceding the calendar year in
which the plan year begins.
(B) Certain individual health insurance policies
obtained through small employers
The amount of the enrollee’s permitted benefit (as defined in section 9831(d)(3)(C) of Title 26) under a qualified small employer health reimbursement arrangement (as defined in section 9831(d)(2) of such title).
(C) Changes in circumstances
The information described in section 18082(b)(2) of
this title, including information with respect to individuals who were not required to file an income tax
return for the taxable year described in subparagraph
(A) or individuals who experienced changes in marital
status or family size or significant reductions in income.
(4) Employer-sponsored coverage
In the case of an enrollee with respect to whom eligibility for a premium tax credit under section 36B of Title
26 or cost-sharing reduction under section 18071 of this
title is being established on the basis that the enrollee’s
(or related individual’s) employer is not treated under
section 36B(c)(2)(C) of Title 26 as providing minimum
essential coverage or affordable minimum essential coverage, the following information:
(A) The name, address, and employer identification
number (if available) of the employer.
(B) Whether the enrollee or individual is a full-time

77a
employee and whether the employer provides such
minimum essential coverage.
(C) If the employer provides such minimum essential
coverage, the lowest cost option for the enrollee’s or
individual’s enrollment status and the enrollee’s or individual’s required contribution (within the meaning
of section 5000A(e)(1)(B) of Title 26) under the employer-sponsored plan.
(D) If an enrollee claims an employer’s minimum essential coverage is unaffordable, the information described in paragraph (3).
If an enrollee changes employment or obtains additional employment while enrolled in a qualified health
plan for which such credit or reduction is allowed, the
enrollee shall notify the Exchange of such change or
additional employment and provide the information
described in this paragraph with respect to the new
employer.
(5) Exemptions from individual responsibility requirements
In the case of an individual who is seeking an exemption
certificate under section 18031(d)(4)(H) of this title from
any requirement or penalty imposed by section 5000A
of Title 26, the following information:
(A) In the case of an individual seeking exemption
based on the individual’s status as a member of an exempt religious sect or division, as a member of a
health care sharing ministry, as an Indian, or as an
individual eligible for a hardship exemption, such information as the Secretary shall prescribe.
(B) In the case of an individual seeking exemption
based on the lack of affordable coverage or the

78a
individual’s status as a taxpayer with household income less than 100 percent of the poverty line, the information described in paragraphs (3) and (4), as applicable.
(c) Verification of information contained in records of
specific Federal officials
(1) Information transferred to Secretary
An Exchange shall submit the information provided by
an applicant under subsection (b) to the Secretary for
verification in accordance with the requirements of this
subsection and subsection (d).
(2) Citizenship or immigration status
(A) Commissioner of Social Security
The Secretary shall submit to the Commissioner of
Social Security the following information for a determination as to whether the information provided is
consistent with the information in the records of the
Commissioner:
(i) The name, date of birth, and social security number of each individual for whom such information
was provided under subsection (b)(2).
(ii) The attestation of an individual that the individual is a citizen.
(B) Secretary of Homeland Security
(i) In general
In the case of an individual-(I) who attests that the individual is an alien lawfully present in the United States; or
(II) who attests that the individual is a citizen but
with respect to whom the Commissioner of Social
Security has notified the Secretary under subsection (e)(3) that the attestation is inconsistent with

79a
information in the records maintained by the
Commissioner;
the Secretary shall submit to the Secretary of
Homeland Security the information described
in clause (ii) for a determination as to whether
the information provided is consistent with
the information in the records of the Secretary of Homeland Security.
(ii) Information
The information described in clause (ii) is the following:
(I) The name, date of birth, and any identifying
information with respect to the individual’s immigration status provided under subsection (b)(2).
(II) The attestation that the individual is an alien
lawfully present in the United States or in the case
of an individual described in clause (i)(II), the attestation that the individual is a citizen.
(3) Eligibility for tax credit and cost-sharing reduction
The Secretary shall submit the information described in
subsection (b)(3)(A) provided under paragraph (3), (4),
or (5) of subsection (b) to the Secretary of the Treasury
for verification of household income and family size for
purposes of eligibility.
(4) Methods
(A) In general
The Secretary, in consultation with the Secretary of
the Treasury, the Secretary of Homeland Security,
and the Commissioner of Social Security, shall provide that verifications and determinations under this
subsection shall be done--

80a
(i) through use of an on-line system or otherwise for
the electronic submission of, and response to, the information submitted under this subsection with respect to an applicant; or
(ii) by determining the consistency of the information submitted with the information maintained
in the records of the Secretary of the Treasury, the
Secretary of Homeland Security, or the Commissioner of Social Security through such other method
as is approved by the Secretary.
(B) Flexibility
The Secretary may modify the methods used under
the program established by this section for the Exchange and verification of information if the Secretary
determines such modifications would reduce the administrative costs and burdens on the applicant, including allowing an applicant to request the Secretary
of the Treasury to provide the information described
in paragraph (3) directly to the Exchange or to the
Secretary. The Secretary shall not make any such
modification unless the Secretary determines that
any applicable requirements under this section and
section 6103 of Title 26 with respect to the confidentiality, disclosure, maintenance, or use of information
will be met.
(d) Verification by Secretary
In the case of information provided under subsection (b)
that is not required under subsection (c) to be submitted
to another person for verification, the Secretary shall verify the accuracy of such information in such manner as the
Secretary determines appropriate, including delegating
responsibility for verification to the Exchange.

81a
(e) Actions relating to verification
(1) In general
Each person to whom the Secretary provided information under subsection (c) shall report to the Secretary under the method established under subsection
(c)(4) the results of its verification and the Secretary
shall notify the Exchange of such results. Each person
to whom the Secretary provided information under subsection (d) shall report to the Secretary in such manner
as the Secretary determines appropriate.
(2) Verification
(A) Eligibility for enrollment and premium tax
credits and cost-sharing reductions
If information provided by an applicant under paragraphs (1), (2), (3), and (4) of subsection (b) is verified
under subsections (c) and (d)-(i) the individual’s eligibility to enroll through the
Exchange and to apply for premium tax credits and
cost-sharing reductions shall be satisfied; and
(ii) the Secretary shall, if applicable, notify the Secretary of the Treasury under section 18082(c) of this
title of the amount of any advance payment to be
made.
(B) Exemption from individual responsibility
If information provided by an applicant under subsection (b)(5) is verified under subsections (c) and (d), the
Secretary shall issue the certification of exemption described in section 18031(d)(4)(H) of this title.
(3) Inconsistencies involving attestation of citizenship or lawful presence
If the information provided by any applicant under subsection (b)(2) is inconsistent with information in the

82a
records maintained by the Commissioner of Social Security or Secretary of Homeland Security, whichever is
applicable, the applicant’s eligibility will be determined
in the same manner as an individual’s eligibility under
the medicaid program is determined under section
1396a(ee) of this title (as in effect on January 1, 2010).
(4) Inconsistencies involving other information
(A) In general
If the information provided by an applicant under subsection (b) (other than subsection (b)(2)) is inconsistent with information in the records maintained by
persons under subsection (c) or is not verified under
subsection (d), the Secretary shall notify the Exchange and the Exchange shall take the following actions:
(i) Reasonable effort
The Exchange shall make a reasonable effort to
identify and address the causes of such inconsistency, including through typographical or other
clerical errors, by contacting the applicant to confirm the accuracy of the information, and by taking
such additional actions as the Secretary, through
regulation or other guidance, may identify.
(ii) Notice and opportunity to correct
In the case the inconsistency or inability to verify is
not resolved under subparagraph (A), the Exchange
shall-(I) notify the applicant of such fact;
(II) provide the applicant an opportunity to either
present satisfactory documentary evidence or resolve the inconsistency with the person verifying
the information under subsection (c) or (d) during

83a
the 90-day period beginning the date on which the
notice required under subclause (I) is sent to the
applicant.
The Secretary may extend the 90-day period
under subclause (II) for enrollments occurring during 2014.
(B) Specific actions not involving citizenship or
lawful presence
(i) In general
Except as provided in paragraph (3), the Exchange
shall, during any period before the close of the period under subparagraph (A)(ii)(II), make any determination under paragraphs (2), (3), and (4) of
subsection (a) on the basis of the information contained on the application.
(ii) Eligibility or amount of credit or reduction
If an inconsistency involving the eligibility for, or
amount of, any premium tax credit or cost-sharing
reduction is unresolved under this subsection as of
the close of the period under subparagraph
(A)(ii)(II), the Exchange shall notify the applicant of
the amount (if any) of the credit or reduction that is
determined on the basis of the records maintained
by persons under subsection (c).
(iii) Employer affordability
If the Secretary notifies an Exchange that an enrollee is eligible for a premium tax credit under section
36B of Title 26 or cost-sharing reduction under section 18071 of this title because the enrollee’s (or related individual’s) employer does not provide minimum essential coverage through an employer-sponsored plan or that the employer does provide that

84a
coverage but it is not affordable coverage, the Exchange shall notify the employer of such fact and
that the employer may be liable for the payment assessed under section 4980H of Title 26 .
(iv) Exemption
In any case where the inconsistency involving, or inability to verify, information provided under subsection (b)(5) is not resolved as of the close of the period
under subparagraph (A)(ii)(II), the Exchange shall
notify an applicant that no certification of exemption
from any requirement or payment under section
5000A of such title will be issued.
(C) Appeals process
The Exchange shall also notify each person receiving
notice under this paragraph of the appeals processes
established under subsection (f).
(f) Appeals and redeterminations
(1) In general
The Secretary, in consultation with the Secretary of the
Treasury, the Secretary of Homeland Security, and the
Commissioner of Social Security, shall establish procedures by which the Secretary or one of such other Federal officers-(A) hears and makes decisions with respect to appeals
of any determination under subsection (e); and
(B) redetermines eligibility on a periodic basis in appropriate circumstances.
(2) Employer liability
(A) In general
The Secretary shall establish a separate appeals process for employers who are notified under subsection
(e)(4)(C) that the employer may be liable for a tax

85a
imposed by section 4980H of Title 26 with respect to
an employee because of a determination that the employer does not provide minimum essential coverage
through an employer-sponsored plan or that the employer does provide that coverage but it is not affordable coverage with respect to an employee. Such process shall provide an employer the opportunity to-(i) present information to the Exchange for review
of the determination either by the Exchange or the
person making the determination, including evidence of the employer-sponsored plan and employer
contributions to the plan; and
(ii) have access to the data used to make the determination to the extent allowable by law.
Such process shall be in addition to any rights of
appeal the employer may have under subtitle F of
such title.
(B) Confidentiality
Notwithstanding any provision of this title (or the
amendments made by this title) or section 6103 of Title 26, an employer shall not be entitled to any taxpayer return information with respect to an employee
for purposes of determining whether the employer is
subject to the penalty under section 4980H of Title 26
with respect to the employee, except that-(i) the employer may be notified as to the name of
an employee and whether or not the employee’s income is above or below the threshold by which the
affordability of an employer’s health insurance coverage is measured; and
(ii) this subparagraph shall not apply to an employee who provides a waiver (at such time and in

86a
such manner as the Secretary may prescribe) authorizing an employer to have access to the employee’s taxpayer return information.
(g) Confidentiality of applicant information
(1) In general
An applicant for insurance coverage or for a premium
tax credit or cost-sharing reduction shall be required to
provide only the information strictly necessary to authenticate identity, determine eligibility, and determine
the amount of the credit or reduction.
(2) Receipt of information
Any person who receives information provided by an applicant under subsection (b) (whether directly or by another person at the request of the applicant), or receives
information from a Federal agency under subsection
(c), (d), or (e), shall-(A) use the information only for the purposes of, and
to the extent necessary in, ensuring the efficient operation of the Exchange, including verifying the eligibility of an individual to enroll through an Exchange or
to claim a premium tax credit or cost-sharing reduction or the amount of the credit or reduction; and
(B) not disclose the information to any other person
except as provided in this section.
(h) Penalties
(1) False or fraudulent information
(A) Civil penalty
(i) In general
If-(I) any person fails to provides correct information under subsection (b); and
(II) such failure is attributable to negligence or

87a
disregard of any rules or regulations of the Secretary,
such person shall be subject, in addition to any
other penalties that may be prescribed by law,
to a civil penalty of not more than $25,000 with
respect to any failures involving an application
for a plan year. For purposes of this subparagraph, the terms “negligence” and “disregard” shall have the same meanings as when
used in section 6662 of Title 26.
(ii) Reasonable cause exception
No penalty shall be imposed under clause (i) if the
Secretary determines that there was a reasonable
cause for the failure and that the person acted in
good faith.
(B) Knowing and willful violations
Any person who knowingly and willfully provides false
or fraudulent information under subsection (b) shall
be subject, in addition to any other penalties that may
be prescribed by law, to a civil penalty of not more
than $250,000.
(2) Improper use or disclosure of information
Any person who knowingly and willfully uses or discloses information in violation of subsection (g) shall be
subject, in addition to any other penalties that may be
prescribed by law, to a civil penalty of not more than
$25,000.
(3) Limitations on liens and levies
The Secretary (or, if applicable, the Attorney General of
the United States) shall not-(A) file notice of lien with respect to any property of a
person by reason of any failure to pay the penalty

88a
imposed by this subsection; or
(B) levy on any such property with respect to such
failure.
(i) Study of administration of employer responsibility
(1) In general
The Secretary of Health and Human Services shall, in
consultation with the Secretary of the Treasury, conduct a study of the procedures that are necessary to ensure that in the administration of this title and section
4980H of Title 26 (as added by section 1513) that the following rights are protected:
(A) The rights of employees to preserve their right to
confidentiality of their taxpayer return information
and their right to enroll in a qualified health plan
through an Exchange if an employer does not provide
affordable coverage.
(B) The rights of employers to adequate due process
and access to information necessary to accurately determine any payment assessed on employers.
(2) Report
Not later than January 1, 2013, the Secretary of Health
and Human Services shall report the results of the
study conducted under paragraph (1), including any recommendations for legislative changes, to the Committees on Finance and Health, Education, Labor and Pensions of the Senate and the Committees of Education
and Labor and Ways and Means of the House of Representatives.

89a
APPENDIX M
42 U.S.C. § 18091
§ 18091. Requirement to maintain minimum essential
coverage; findings
Congress makes the following findings:
(1) In general
The individual responsibility requirement provided for
in this section (in this section referred to as the “requirement”) is commercial and economic in nature, and
substantially affects interstate commerce, as a result of
the effects described in paragraph (2).
(2) Effects on the national economy and interstate
commerce
The effects described in this paragraph are the following:
(A) The requirement regulates activity that is commercial and economic in nature: economic and financial decisions about how and when health care is paid
for, and when health insurance is purchased. In the
absence of the requirement, some individuals would
make an economic and financial decision to forego
health insurance coverage and attempt to self-insure,
which increases financial risks to households and
medical providers.
(B) Health insurance and health care services are a
significant part of the national economy. National
health spending is projected to increase from
$2,500,000,000,000, or 17.6 percent of the economy, in
2009 to $4,700,000,000,000 in 2019. Private health insurance spending is projected to be $854,000,000,000

90a
in 2009, and pays for medical supplies, drugs, and
equipment that are shipped in interstate commerce.
Since most health insurance is sold by national or regional health insurance companies, health insurance
is sold in interstate commerce and claims payments
flow through interstate commerce.
(C) The requirement, together with the other provisions of this Act, will add millions of new consumers to
the health insurance market, increasing the supply of,
and demand for, health care services, and will increase
the number and share of Americans who are insured.
(D) The requirement achieves near-universal coverage by building upon and strengthening the private
employer-based health insurance system, which covers 176,000,000 Americans nationwide. In Massachusetts, a similar requirement has strengthened private
employer-based coverage: despite the economic
downturn, the number of workers offered employerbased coverage has actually increased.
(E) The economy loses up to $207,000,000,000 a year
because of the poorer health and shorter lifespan of
the uninsured. By significantly reducing the number
of the uninsured, the requirement, together with the
other provisions of this Act, will significantly reduce
this economic cost.
(F) The cost of providing uncompensated care to the
uninsured was $43,000,000,000 in 2008. To pay for this
cost, health care providers pass on the cost to private
insurers, which pass on the cost to families. This costshifting increases family premiums by on average
over $1,000 a year. By significantly reducing the number of the uninsured, the requirement, together with

91a
the other provisions of this Act, will lower health insurance premiums.
(G) 62 percent of all personal bankruptcies are caused
in part by medical expenses. By significantly increasing health insurance coverage, the requirement, together with the other provisions of this Act, will improve financial security for families.
(H) Under the Employee Retirement Income Security Act of 1974 (29 U.S.C. 1001 et seq.), the Public
Health Service Act (42 U.S.C. 201 et seq.), and this
Act, the Federal Government has a significant role in
regulating health insurance. The requirement is an
essential part of this larger regulation of economic activity, and the absence of the requirement would undercut Federal regulation of the health insurance
market.
(I) Under sections 2704 and 2705 of the Public Health
Service Act (as added by section 1201 of this Act), if
there were no requirement, many individuals would
wait to purchase health insurance until they needed
care. By significantly increasing health insurance coverage, the requirement, together with the other provisions of this Act, will minimize this adverse selection
and broaden the health insurance risk pool to include
healthy individuals, which will lower health insurance
premiums. The requirement is essential to creating
effective health insurance markets in which improved
health insurance products that are guaranteed issue
and do not exclude coverage of pre-existing conditions
can be sold.
(J) Administrative costs for private health insurance,
which were $90,000,000,000 in 2006, are 26 to 30

92a
percent of premiums in the current individual and
small group markets. By significantly increasing
health insurance coverage and the size of purchasing
pools, which will increase economies of scale, the requirement, together with the other provisions of this
Act, will significantly reduce administrative costs and
lower health insurance premiums. The requirement is
essential to creating effective health insurance markets that do not require underwriting and eliminate
its associated administrative costs.
(3) Supreme Court ruling
In United States v. South-Eastern Underwriters Association (322 U.S. 533 (1944)), the Supreme Court of the
United States ruled that insurance is interstate commerce subject to Federal regulation.

